<html>
<title> - FOSSIL ENERGY RESEARCH:. ENABLING OUR CLEAN ENERGY FUTURE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                        FOSSIL ENERGY RESEARCH:
                    ENABLING OUR CLEAN ENERGY FUTURE

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             June 19, 2019

                               __________

                           Serial No. 116-29

                               __________

 Printed for the use of the Committee on Science, Space, and Technology

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

       Available via the World Wide Web: http://science.house.gov
       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-709PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="44342b04273137302c2128346a272b296a">[email&#160;protected]</a>                
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, Puerto 
CHARLIE CRIST, Florida                   Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                                 ------                                

                         Subcommittee on Energy

                HON. CONOR LAMB, Pennsylvania, Chairman
DANIEL LIPINKSI, Illinois            RANDY WEBER, Texas, Ranking Member
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              RALPH NORMAN, South Carolina
KENDRA HORN, Oklahoma                MICHAEL CLOUD, Texas
JERRY McNERNEY, California           VACANCY
BILL FOSTER, Illinois
SEAN CASTEN, Illinois
                        
                        C  O  N  T  E  N  T  S

                             June 19, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Conor Lamb, Chairman, Subcommittee on 
  Energy, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................     7
    Written Statement............................................     8

Statement by Representative Randy Weber, Ranking Member, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     9
    Written Statement............................................    10

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    11
    Written statement............................................    12

Statement by Representative Frank Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    13
    Written statement............................................    14

                               Witnesses:

Ms. Shannon Angielski, Executive Director, Carbon Utilization 
  Research Council
    Oral Statement...............................................    16
    Written Statement............................................    19

Mr. Elgie Holstein, Senior Director for Strategic Planning, 
  Environmental Defense Fund
    Oral Statement...............................................    35
    Written Statement............................................    37

Mr. Jeff Bobeck, Director of Energy Policy and Engagement, Center 
  for Climate and Energy Solutions
    Oral Statement...............................................    44
    Written Statement............................................    46

Ms. Erin Burns, Director of Policy, Carbon180
    Oral Statement...............................................    54
    Written Statement............................................    56

Dr. Erik K. Webb, Senior Manager, Geoscience Research and 
  Applications, Sandia National Laboratories
    Oral Statement...............................................    66
    Written Statement............................................    68

Discussion.......................................................    76

 
                        FOSSIL ENERGY RESEARCH:.
                    ENABLING OUR CLEAN ENERGY FUTURE

                              ----------                              


                        WEDNESDAY, JUNE 19, 2019

                  House of Representatives,
                            Subcommittee on Energy,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to notice, at 3:25 p.m., in 
room 2318 of the Rayburn House Office Building, Hon. Conor Lamb 
[Chairman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Lamb. OK. This hearing will come to order. Without 
objection, the Chair is authorized to declare recess at any 
time.
    Good afternoon. Welcome to this afternoon's hearing 
entitled, ``Fossil Energy Research: Enabling Our Clean Energy 
Future.'' Thank you to our distinguished panel of witnesses for 
joining us.
    We have discussed on this Subcommittee previously that we 
all believe we must develop policies that both support American 
workers while also addressing climate change. I myself believe 
in a jobs-first environmental policy. That's why I'm excited to 
hold this hearing. We will focus on two draft bills that will 
do exactly that today, support critical research to mitigate 
the environmental impacts that come with the extraction and use 
of fossil fuels.
    Western Pennsylvania, where I'm from, plays a key role in 
all of this. We are a net exporter of energy, second largest 
producer of natural gas in the country. We have produced more 
coal than any State in the Nation, and that has powered us 
through the Industrial Revolution, two world wars, produced 
most of the wealth that we enjoy in western Pennsylvania to 
this day, to say nothing of employing thousands and thousands 
of men and women supporting families, which also continues to 
this day.
    The energy industry remains a top employer in my district 
and region. People are working in these jobs and feeding their 
families tonight with this wealth, and we want to see it 
continue but in a way that's environmentally responsible and 
does not deny what we all know is coming with climate change 
and the urgent need to emit less carbon and decarbonize our 
economy.
    Last month, we were able to have several Members of the 
Committee join us at the National Energy Technology 
Laboratory's (NETL's) Pittsburgh site near my district, and we 
got to see firsthand some of the technologies and works that 
the folks at NETL are doing. We are extremely proud of NETL and 
happy that they are under new leadership, which is going to 
keep them going strong for a long time.
    It's the only national lab dedicated to fossil energy 
research, so we are going to be talking first about the Fossil 
Energy Research and Development Act of 2019, which will support 
their research activities there. Specifically, I'd like to 
highlight demonstration activities on carbon capture, and I 
know some of our folks today will be talking about the 
importance of that.
    We'll also be boosting research to talk about efficiency 
improvements, the prevention of methane leaks at every point in 
the natural gas infrastructure, increasing our investment in 
how to utilize carbon as well.
    We also are going to look beyond the power sector in 
today's hearing, which I think is vitally important. We tend to 
focus on the power grid, but of course we need to find ways to 
decarbonize the industrial and transportation sectors as well. 
So we'll also be looking at the Industrial Decarbonization 
Technology Development Act--it really rolls off the tongue--the 
IDTD. The bill would authorize an interagency research program 
led by DOE (Department of Energy) to develop technologies that 
will help us eliminate lifecycle greenhouse gas emissions from 
both the industrial and transportation sectors.
    This can and should be a bipartisan issue, and I believe it 
will be based on conversations with my colleagues. Secretary 
Perry has said that you cannot have a real conversation about 
clean energy without talking about CCUS (carbon capture, 
utilization, and storage). Former Secretary Moniz has made very 
similar comments. The Department of Energy under the Obama 
Administration released a white paper on this technology saying 
that CCUS would be a key pathway to where we need to go on 
clean energy. And of course, as at least one of our witnesses 
has noted in their written testimony, the IEA (International 
Energy Agency) has also noted that it could be 2 or 2-1/2 or 3 
times more expensive to reach our climate goals by 2050 if we 
do not have carbon capture as part of the solution.
    So I think we're all on the same page there. We will do 
everything we can to push forward this knowledge and then have 
this also be a source of American jobs in the future because we 
all believe that others in the world will be burning fossil 
fuels for a long time. We might as well have them buying carbon 
capture technology from the United States.
    So I thank our panel of witnesses again for being here 
today, look forward to your input.
    [The prepared statement of Chairman Lamb follows:]

    Good afternoon and thank you to this distinguished panel of 
witnesses for joining us today. As we've discussed on this 
Subcommittee previously, we must develop policies that strongly 
support American workers while addressing the critical issue of 
climate change. I believe Carbon Capture, Utilization, and 
Storage technologies represent that type of dual opportunity. 
That is why I am excited to hold today's hearing, which focuses 
on two draft bills that would support critical research 
activities to mitigate the environmental impacts that come from 
the extraction and use of fossil fuels and curtail emissions 
from the industrial sector.
    Western Pennsylvania plays a key role in this intersection. 
Pennsylvania is a net-exporter of energy and the second-largest 
producer of natural gas in the country. My home state has 
produced more coal than any other in our nation's history - 
coal that powered us through the industrial revolution and two 
World Wars. We used this power and our resources to make the 
steel that built our country.
    These industries employed thousands and thousands of men 
and women; generations supported their families through this 
hard work. That continues to this day. The energy industry 
remains a top employer in my district and region, and we have 
world-class labs, companies, and universities conducting 
cutting-edge research to ensure these resources and products 
are made in environmentally responsible manners.
    Last month, I was very proud to lead a Congressional 
Delegation to the National Energy Technology Laboratory's 
(NETL's) Pittsburgh site near my district, where we saw first-
hand the wide range of important technologies and methods that 
NETL is developing to ensure that the production and use of 
coal and natural gas are as efficient and environmentally 
friendly as possible. NETL is the only U.S. Department of 
Energy national laboratory dedicated to fossil energy research.
    Accordingly, I'm pleased we are holding this hearing on the 
Fossil Energy Research and Development Act of 2019. This bill 
will support research, development, and demonstration 
activities on carbon capture, storage, utilization, and removal 
and bolster the work being done at NETL. It will also boost 
research to advance significant efficiency improvements, 
prevent methane leaks from natural gas infrastructure, and 
increase our investment in carbon utilization research.
    As we continue to develop ways to reduce the environmental 
impact of fossil energy sources overall, we must also look 
beyond the power sector. The industrial and transportation 
sectors combined produced nearly half of all greenhouse gas 
emissions in the U.S. in 2017. The second draft bill we are 
considering today, the Industrial Decarbonization Technology 
Development Act of 2019, is aimed at mitigating that. This bill 
would authorize an interagency research program led by the 
Department of Energy to develop technologies that will help 
eliminate lifecycle greenhouse gas emissions from industrial 
processes and long-distance transportation. Supporting these 
types of research and technology can and should be a bipartisan 
issue. Secretary Perry has said he doesn't believe ``you can 
have a real conversation about clean energy without including 
CCUS.'' I agree.
    Similarly, Secretary Moniz often spoke of the importance of 
CCUS technologies across industries, describing them as 
``critical for reducing COCO<INF>2</INF> and meeting our 
climate goals,'' and stating that ``we need to continue this 
innovation push.'' In 2016, the Department of Energy under the 
Obama administration also released a great white paper on the 
technology, heralding CCUS as ``a key pathway to address the 
urgent U.S. and global need for affordable, secure, resilient, 
and reliable sources of clean energy.'' We should be doing 
everything we can to advance these technologies, from their 
research and development to their deployment.
    I thank our panel of witnesses again for being here today 
and I look forward to their input and feedback on these 
important topics and the discussion drafts.

    Chairman Lamb. And I would like to recognize Ranking 
Member, Mr. Weber, for an opening statement if he is ready and 
his breath is caught.
    Mr. Weber. Well, one out of two ain't bad, Chairman.
    Chairman Lamb. All right. Go for it.
    Mr. Weber. But I appreciate that. Thank you. I apologize 
for being late. My bicycle had a flat tire.
    Thank you, Chairman Lamb, for hosting this hearing. Today, 
we will have the opportunity to hear about exciting new 
research and development in fossil energy.
    Last year in the United States, coal and natural gas 
comprised 64 percent of net electricity generation, with that 
number expected to only dip to 58 percent by 2040. The use of 
fossil fuels in the power sector, as you kind of alluded to, 
isn't going anywhere. We have incredible domestic fossil energy 
resources, and our economic stability depends on the power they 
produce.
    So it's no surprise that we have a robust industry here at 
home investing in the generation that you talked about, 
developing technologies to produce and use American fossil 
fuels more efficiently, more safely, and at a lower cost for 
American consumers.
    Today's hearing is an opportunity for private-sector 
organizations and DOE national labs to highlight their leading 
roles in fossil energy innovation. The scope and range of 
technologies being pursued is as vast as the untapped oil 
reserves in west Texas. We'll hear from expert witnesses about 
research in materials science that can prevent CO<INF>2</INF> 
leaks in storage formations under high temperatures, high 
pressures, and chemical conditions.
    I'm also excited to hear about a joint project between the 
Nuclear and Fossil Offices at DOE that uses supercritical 
carbon dioxide as the working fluid, rather than steam, to 
dramatically increase energy conversion efficiency at one-tenth 
the cost.
    While there are significant opportunities for worthy and 
exciting research in this field, it is our job here in Congress 
to focus Federal agencies on the best use of Federal funds, and 
that means directing the Department of Energy to focus on the 
basic and early-stage research industry cannot do on its own. 
They need to be collecting long-term data and maintaining 
expertise to provide industry with the tools necessary to 
achieve technology breakthroughs. Once that technology is 
developed, industry is best suited to take the lead, building 
on the DOE research to commercialize those very same 
technologies.
    We've seen incredible research and technology successes 
through collaborative, public-private partnerships, and it's 
clear that this is the model that ensures Federal research 
investments give the American people the most bang for their 
buck. One such example is the Air Products production facility 
in my home district in Port Arthur, Texas. This facility, which 
is one of only two industrial plants in the entire United 
States where carbon capture is currently in use at scale, 
captures over 1 million tons of carbon dioxide per year. Let me 
restate that. It captures over 1 million tons of carbon dioxide 
each year. This CO<INF>2</INF> is then transported via pipeline 
for use in EOR, what we call enhanced oil recovery. With 
support from the Department of Energy, the technology developed 
and deployed at this facility is reducing the emissions from 
local refineries and producing affordable American fuel to 
power our economy at the same time.
    Today, DOE is making smart, targeted investments in early-
stage research to advance the next generation of production and 
emissions control technologies through the DOE Fossil Energy 
and Research or FER&D program. Funded at $740 million in FY 
2019, the FER&D program conducts research that supports clean, 
affordable, and efficient use of domestic fossil energy 
resources. In order to ensure these limited research dollars 
are spent wisely, we must focus funding toward projects that 
are truly cutting edge, applying DOE's supercomputers, their 
light sources, and expertise toward developing next-generation 
materials while maximizing efficiencies.
    The complex fossil energy research challenges we face today 
will require an all hands-on-deck approach. Academia, industry, 
and the DOE are the ideal partners to develop these solutions. 
I look forward to hearing about these great partnerships from 
our witnesses today. I'm particularly interested to hear from 
Dr. Erik Webb, who joins us from Sandia National Lab--welcome, 
Doctor--about how the DOE labs can take a leading role in this 
effort.
    I want to thank all the witnesses in advance for testifying 
today and, Mr. Chairman, you for holding the hearing, and I 
yield back.
    [The prepared statement of Mr. Weber follows:]

    Thank you, Chairman Lamb, for hosting this hearing. Today, 
we will have the opportunity to hear about exciting new 
research and development in fossil energy.
    Last year in the United States, coal and natural gas 
comprised 64% of net electricity generation, with that number 
expected to only dip to 58% by 2040. The use of fossil fuels in 
the power sector isn't going anywhere. We have incredible 
domestic fossil energy resources, and our economic stability 
depends on the power they produce.
    So it's no surprise that we have a robust industry here at 
home investing in developing the next generation of 
technologies to produce and use American fossil fuels more 
efficiently, more safely, and at a lower cost for American 
consumers.
    Today's hearing is an opportunity for private sector 
organizations and DOE national labs to highlight their leading 
roles in fossil energy innovation. The scope and range of 
technologies being pursued is as vast as the untapped oil and 
gas reserves in Texas!
    We'll hear from expert witnesses about research in 
materials science that can prevent CO<INF>2</INF> leaks in 
storage formations under high temperatures, pressures, and 
chemical conditions. I'm also excited to hear about a joint 
project between the Nuclear and Fossil Offices at DOE that uses 
supercritical carbon dioxide as the working fluid, rather than 
steam, to dramatically increase energy conversion efficiency at 
1/10th the cost.
    While there are significant opportunities for worthy and 
exciting research in this field, it's our job in Congress to 
focus federal agencies on the best use of federal funds.
    That means directing the Department of Energy to focus on 
the basic and early-stage research industry cannot conduct on 
its own, collecting long term data and maintaining expertise to 
provide industry with the tools necessary to achieve technology 
breakthroughs. Once a technology is developed, industry is best 
suited to take the lead, building on DOE research to 
commercialize technologies.
    We've seen incredible research and technology successes 
through collaborative, public-private partnerships, and it's 
clear this is the model that ensures federal research 
investments give us the most bang for our buck.
    One such example is the Air Products production facility in 
my home district.
    This facility, which is one of only two industrial plants 
in the United States where carbon capture is currently in use 
at-scale, captures over one million tons of carbon dioxide per 
year. This CO<INF>2</INF> is then transported via pipeline for 
use in enhanced oil recovery.
    With support from DOE, the technology developed and 
deployed at this facility is reducing the emissions from local 
refineries, and producing affordable, American fuel to power 
our economy.
    Today, DOE is making smart, targeted investments in early-
stage research to advance the next generation of production and 
emissions control technologies through the DOE Fossil Energy 
Research and Development (F-E-R and D) program.
    Funded at $740 million in FY 2019, the FER&D program 
conducts research that supports clean, affordable, and 
efficient use of domestic fossil energy resources. In order to 
ensure these limited research dollars are spent wisely, we must 
focus funding towards projects that are truly cutting edge - 
applying DOE's supercomputers, light sources, and expertise 
towards developing next generation materials and maximizing 
efficiencies.
    The complex fossil energy research challenges we face today 
will require an all hands-on deck approach. Academia, industry, 
and the Department of Energy are the ideal partners to develop 
these solutions. I look forward to hearing about these 
partnerships from our witnesses today.
    I'm particularly interested to hear from Dr. Erik Webb - 
who joins us from Sandia National Lab - about how the DOE labs 
can take a leading role in this effort.
    I want to thank our all witnesses for testifying today, and 
the Chairman for holding this hearing.

    Chairman Lamb. Thank you.
    I now recognize Chairwoman Johnson for an opening 
statement.
    Chairwoman Johnson. Thank you very much, Mr. Chairman, and 
good afternoon to everyone.
    I do appreciate this hearing being held on the Department 
of Energy's efforts to mitigate the environmental impacts of 
fossil fuels used in the power sector, as well as in 
manufacturing processes.
    Historically, fossil fuels have served as a primary source 
of U.S. energy as they provide reliable power at low cost. My 
home State of Texas has played an important role in the fossil 
fuels industry as the leading producer of crude oil and natural 
gas in the United States. However, as our Nation's priorities 
have evolved, we are now focused not only on using energy 
resources that provide low cost, dispatchable energy, but also 
ensuring that these are clean sources of energy.
    That's why we must strengthen our investments in the 
Department of Energy's Office of Fossil Energy, which supports 
research to address the environmental impacts of fossil fuels. 
This includes the development of technologies such as carbon 
capture, carbon storage, and methane leak detection and 
mitigation.
    Last Congress, I was proud to support the bipartisan Fossil 
Fuel Research and Development Act of 2018, which reauthorizes 
and expands these important research activities. I look forward 
to discussing our proposed updates to that legislation during 
today's hearing.
    While fossil fuels play an important role in power 
generation, they are also an important resource for the 
manufacturing sector, which is responsible for the third 
highest level of carbon emissions economywide. Manufacturers 
rely on the combustion of fossil fuels to provide high-
temperature heat needed for a variety of processes, including 
the production of cement and glass.
    Technologies already being developed, like carbon capture, 
will play an important role in reducing industrial emissions, 
but we need to develop a variety of technologies that reflect 
the diversity of our Nation's manufacturing sector, from 
traditional sectors like the automobile manufacturing, to more 
innovative sectors like sustainable building materials.
    That is why I am pleased that this hearing will also 
consider another proposed bill today, the Industrial 
Decarbonization Technology Development Act of 2019, which would 
authorize a cross-agency research initiative led by the 
Department of Energy to reduce emissions from long-distance 
transportation and manufacturing. Investing in research to 
reduce emissions from these important economic sectors is 
essential to meeting our climate change mitigation goals.
    I'm looking forward to hearing from our distinguished group 
of witnesses today on the research investments we need to make 
to make the transition toward a clean energy economy. I thank 
you for being here today, and with that, I yield back.
    [The prepared statement of Chairwoman Johnson follows:]

    Good afternoon and thank you, Chairman Lamb, for holding 
today's hearing on the Department of Energy's efforts to 
mitigate the environmental impacts of fossil fuels used in the 
power sector as well as in manufacturing processes.
    Historically, fossil fuels have served as the primary 
sources of U.S. energy as they provide reliable power at low 
costs. My home state of Texas has played an important role in 
the fossil fuel industry as the leading producer of crude oil 
and natural gas in the U.S. However, as our nation's priorities 
have evolved, we are now focused not only on using energy 
sources that provide low cost, dispatchable energy, but also 
ensuring that these are clean sources of energy.
    That's why we must strengthen our investment in the 
Department of Energy's Office of Fossil Energy, which supports 
research to address the environmental impacts of fossil fuels. 
This includes the development of technologies such as carbon 
capture, carbon storage, and methane leak detection and 
mitigation. Last Congress, I was proud to support the 
bipartisan Fossil Energy Research and Development Act of 2018, 
which reauthorizes and expands these important research 
activities. I look forward to discussing our proposed updates 
to that legislation during today's hearing.
    While fossil fuels play an important role in power 
generation, they are also an important resource for the 
manufacturing sector, which is responsible for the third 
highest level of carbon emissions economy-wide. Manufacturers 
rely on the combustion of fossil fuels to provide high-
temperature heat needed for a variety of processes, including 
the production of cement and glass.
    Technologies already being developed, like carbon capture, 
will play an important role in reducing industrial emissions, 
but we need to develop a variety of technologies that reflect 
the diversity of our nation's manufacturing sector, from 
traditional sectors like automobile manufacturing, to more 
innovative sectors like sustainable building materials.
    That is why I am pleased that this hearing will also 
consider another proposed bill today, the Industrial 
Decarbonization Technology Development Act of 2019, which would 
authorize a cross-agency research initiative led by the 
Department of Energy to reduce emissions from long-distance 
transportation and manufacturing. Investing in research to 
reduce emissions from these important economic sectors is 
essential to meeting our climate change mitigation goals.
    I am looking forward to hearing from our distinguished 
group of witnesses today on the research investments we need to 
make to make the transition towards a clean energy economy. 
Thank you for being here today.
    With that, I yield back.

    Chairman Lamb. The Chair now recognizes Ranking Member 
Lucas for an opening statement.
    Mr. Lucas. Thank you, Chairman Lamb, for hosting this 
hearing, which is especially relevant to the natural gas 
industry in my own Oklahoma district.
    Fossil fuels provide over 80 percent of energy worldwide 
and remain the dominant source of energy here in the U.S. 
Petroleum, natural gas, and coal provided more than 80 percent 
of total U.S. energy consumption for the past 100 years, with 
energy reserves to power our Nation for the next century.
    In order to responsibly use our vast energy resources, the 
next generation of fossil fuel technologies must be more 
efficient, cleaner, and less expensive for American consumers. 
Fortunately, our country is uniquely positioned to prioritize 
the basic and early-stage research that leads to groundbreaking 
technology.
    In the 3 years since the U.S. began exporting liquefied 
natural gas, we've become the world's third largest supplier. 
The U.S. is projected to double export capacity by the end of 
2020 and become the top exporter by 2025. This is an incredible 
achievement made possible by American science and technology. 
Federally funded research programs have a history of paving the 
way for industry innovation. DOE labs created the drill bit 
technology that led to hydraulic fracturing and horizontal 
drilling, revolutionizing the oil and gas sector.
    Basic research in geology at the Department of Energy's 
Sandia National Lab led to the development of microseismic 
fracture mapping techniques for hydraulic fracking. And sensor 
technologies originally developed for aerospace applications at 
NASA and the Department of Defense have been used to improve 
safety in oil and gas development. In all these cases, industry 
partners adopted techniques developed in the laboratory for 
commercial use, maximizing energy production across the 
country. Today, DOE contributes to make key investments in 
early-stage fossil energy research, while the private sector 
takes the lead on efforts to deploy new technologies.
    Innovators in our national labs are building on decades of 
groundbreaking successes in oil and gas production. I'm 
particularly interested to hear from Dr. Erik Webb on how 
Sandia National Lab is using monitoring systems and 
mathematical models to better understand the subsurface. His 
research will help fossil energy producers make more informed 
decisions before they drill a well, saving time, money, and 
reducing their environmental footprint along the way.
    We know that industry has the resources, the capital, and 
the capacity to successfully commercialize new technology. What 
they often don't have is the infrastructure to conduct early-
stage research and maintain historical data. This is where DOE, 
national labs, and academia can help.
    At the National Energy Technologies Laboratory, the 
Nation's leading fossil fuel lab, researchers are speeding up 
the process of high-performance computing. Using the 
laboratory's Joule 2.0 supercomputer, which recently received a 
$16.5 million upgrade that boosted this computing power by 
roughly 8 times. DOE researchers have helped industry optimize 
chemical reactor designs and measure and improve the efficiency 
of gas turbines.
    With DOE's research, industry can improve the next 
generation of power plants, using computerizational models to 
save time and money in planning and producing power more 
efficiently with less impact on the environment. The Department 
plays an important role in ensuring energy producers are 
utilizing the most efficient, safe, and clean technologies. We 
in Congress owe it to the American consumers to prioritize this 
important research and responsibly provide the needed energy 
for economic development, while maintaining environmental 
stewardship.
    I want to thank you, Chairman Lamb, for holding this 
hearing, and I look forward to hearing from the witnesses today 
about the path forward for our next generation of fossil fuel 
technology.
    I yield back, Mr. Chairman.
    [The prepared statement of Mr. Lucas follows:]

    Thank you, Chairman Lamb, for hosting this hearing which is 
especially relevant to the natural gas industry in my Oklahoma 
district.
    Fossil fuels provide over 80% of energy worldwide and 
remain the dominant source of energy here in the U.S. 
Petroleum, natural gas, and coal provided more than 80% of 
total U.S. energy consumption for the past 100 years, with 
energy reserves to power our nation for the next century.
    In order to responsibly use our vast energy resources, the 
next generation of fossil energy technologies must be more 
efficient, cleaner, and less expensive for American consumers. 
Fortunately, our country is uniquely positioned to prioritize 
the basic and early-stage research that leads to groundbreaking 
technology.
    Federally funded research programs have a history of paving 
the way for industry innovation. DOE labs created the drill bit 
technology that led to hydraulic fracturing and horizontal 
drilling, revolutionizing the oil and gas sector.
    Basic research in geology at the Department of Energy's 
Sandia National Lab led to the development of microseismic 
fracture mapping techniques for hydraulic fracturing. And 
sensor technologies originally developed for aerospace 
applications at NASA and the Department of Defense have been 
used to improve safety in oil and gas development.
    In all of these cases, industry partners adapted techniques 
developed in the laboratory for commercial use, maximizing 
energy production across the country.
    Today, DOE continues to make key investments in early-stage 
fossil energy research, while the private sector takes the lead 
on efforts to deploy new technologies. Innovators in our 
national labs are building on decades of groundbreaking 
successes in oil and gas production.
    I am particularly interested to hear from Dr. Erik Webb on 
how Sandia National Lab is using monitoring systems and 
mathematical models to better understand the subsurface. His 
research could help fossil energy producers make more informed 
decisions before they drill a well - saving time, money, and 
reducing their environmental footprint along the way.
    We know that industry has the resources, capital, and 
capability to successfully commercialize new technology. What 
they often don't have is the infrastructure to conduct early-
stage research and maintain historical data. This is where DOE, 
national labs, and academia can help.
    At the National Energy Technologies Laboratory (NETL), the 
nation's leading fossil energy lab, researchers are speeding up 
this process with high performance computing. Using the lab's 
Joule 2.0 supercomputer - which recently received a $16.5 
million upgrade that boosted its computational power by roughly 
eight times - DOE researchers are helping industry optimize 
chemical reactor designs and measure and improve the efficiency 
of gas turbines.
    With DOE's research, industry can improve the next 
generation of power plants, using computational designs to save 
time and money in planning, and producing power more 
efficiently with less impact on the environment.
    The Department plays an important role in ensuring energy 
producers are utilizing the most efficient, safe, and clean 
technologies. We in Congress owe it to American consumers to 
prioritize this important research, and responsibly provide the 
needed energy for economic development while maintaining 
environmental stewardship.
    I want to thank you Chairman Lamb for holding this hearing, 
and I look forward to hearing from our witnesses today about 
the path forward for next generation fossil energy technology.

    Chairman Lamb. Thank you.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    Now, I'd like to introduce our witnesses. Ms. Shannon 
Angielski is a Principal at Van Ness Feldman, LLP, a 
Washington, D.C.-based law firm that specializes in energy 
environment and national resource policy and law. She serves as 
Executive Director of the Carbon Utilization Research Council 
(CURC), which is a coalition of electric utilities that rely on 
coal and natural gas for electricity production, gas 
distributors, equipment manufacturers, national associations, 
State universities, and technology research organizations. 
CURC's stated mission is to advance technology systems 
solutions for the responsible use of our fossil energy 
resources in a balanced portfolio to support our Nation's need 
for reliable and affordable energy.
    Mr. Elgie Holstein is the Senior Director for Strategic 
Planning at the Environmental Defense Fund (EDF) in Washington, 
D.C. Prior to joining EDF in 2009, he was Co-Director of the 
DOE Presidential transition team and has held numerous senior 
positions in government, including the role of Associate 
Director for Natural Resources, Energy, and Science in the 
Office of Management and Budget; Special Assistant to the 
President for Economic Policy at the National Economic Council; 
and Chief of Staff for the U.S. Department of Energy under 
President Clinton.
    Mr. Jeff Bobeck is the Director of Energy Policy Engagement 
at the Center for Climate and Energy Solutions. Mr. Bobeck 
leads the work of C2ES in co-convening the National Carbon 
Capture Coalition, which includes executives from energy, 
industrial and technology companies, labor unions, 
environmental and energy policy organizations. The coalition's 
stated mission is to simultaneously foster domestic energy 
production, support jobs, and reduce emissions. Spoken like a 
western Pennsylvanian because I believe he is one. Prior to his 
current position, Mr. Bobeck served as Director of 
Communications and External Affairs for the U.S. Department of 
Energy under President George W. Bush, held senior positions 
with the American Automobile Manufacturers Association, and the 
Global CCS Institute.
    Ms. Erin Burns is the Director of Policy at Carbon180, a 
nongovernmental organization focused on carbon removal where 
she works with scientists, entrepreneurs, academics, and 
policymakers to create and inform Federal policy on carbon 
capture, removal, and use. Prior to her current position, Ms. 
Burns served on the staff of Senator Manchin where she handled 
energy, environmental, labor, and agricultural issues and 
worked as a Senior Policy Advisor for Third Way, a D.C.-based 
think tank managing its carbon capture and removal innovation 
and other clean energy policy issue areas.
    And last but certainly not least, Dr. Erik Webb is the 
Senior Manager of the Geoscience Research and Applications 
Group at Sandia National Laboratories. Prior to his current 
position, Dr. Webb managed Sandia's Global Security Systems and 
Technologies Department, leading the second line of defense 
program responsible for creating a nuclear detection network at 
international ports of entry in 50 countries. He also served on 
the staff of former Senator Domenici focusing on energy and 
water policy issues and is a fellow on the Senate Energy and 
Natural Resources Committee. Dr. Webb has a Ph.D. in hydrology 
with an emphasis in modeling and applied math from the 
University of Wisconsin.
    As our witnesses should know, you will each have 5 minutes 
for your spoken testimony. Your written testimony will be 
included in the record of this hearing. And when you have all 
completed your spoken testimony, we will begin with questions. 
Each Member will have 5 minutes to question the panel.
    And we will start with Ms. Shannon Angielski. And I 
apologize if I pronounced that wrong. You can correct us so the 
rest of us don't do that.

                 TESTIMONY OF SHANNON ANGIELSKI,

                       EXECUTIVE DIRECTOR,

               CARBON UTILIZATION RESEARCH COUNCIL

    Ms. Angielski. No, I'm actually very impressed. Thank you. 
I think this is the first time that anybody has actually 
pronounced my last name the right way, so you must come from 
Pennsylvania coal country----
    Chairman Lamb. There you go.
    Ms. Angielski [continuing]. Because that's where my name 
comes from.
    So let me just say thank you, Chairman Lamb, Ranking Member 
Weber, and to the Members of the Subcommittee for the 
invitation to testify and do so in support of the Fossil Energy 
Research and Development Act of 2019.
    As Chairman Lamb has already pointed out, the CURC is an 
industry coalition that's really focused on technology 
solutions for fossil utilization, fossil energy utilization. 
What's important about our group is that members of CURC 
believe that American fossil fuels and ingenuity and technology 
innovation will satisfy our world's growing appetite for 
affordable energy, improve our energy security, increase 
exports, create high-paying jobs, and improve environmental 
quality.
    In order to meet these important objectives, members of 
CURC are at the forefront of their organizations and partnering 
with the Department of Energy to develop and commercialize 
technologies that will transform the way that we use our fossil 
fuels. Successfully achieving these objectives will require a 
strong public-private partnership with the Federal Government 
providing strategic investments in the research development and 
demonstration that's needed, and that's why we are here to 
support the bill that is before this Committee.
    Consumption of fossil fuels, as you pointed out, Mr. 
Chairman, it's on the rise both internationally, as well as 
domestically, but I think the international aspect of this is 
really important to focus on. It's because it's due to the role 
the fossil fuels play in providing affordable, accessible, and 
reliable energy.
    According to the International Energy Agency and the United 
Nation's Intergovernmental Panel on Climate Change, carbon 
capture utilization and storage or CCUS as we call it, it will 
be a critical component of the portfolio of energy technologies 
needed to reduce carbon dioxide emissions worldwide. And the 
good news is that the U.S. has been the leader in the 
development of this technology with the support of the 
Department of Energy's world-class carbon capture and storage 
programs.
    By way of example, DOE supported the Nation's first 
commercial-scale carbon capture demonstration project that is 
successfully operating on a coal-fired power plant in Texas. 
That's the Petra Nova project. And it's--as the U.S. continues 
to invest in these types of projects and in the research that's 
needed will benefit not only from cleaner power but also from 
new markets for U.S. technologies both domestically and abroad.
    I want to point out that Congress actually made a critical 
step last year in catalyzing a CCUS industry in the U.S. due to 
the enactment of the FUTURE Act, and this would extend and 
expand the section 45Q carbon sequestration tax credits. And 
they're already incentivizing CCUS projects across several 
industries.
    However, today's CCUS technology is still at the early 
stages of deployment and thus relatively expensive to implement 
in some industries like the power sector, and that's why 
improved carbon capture technologies will be needed to help 
reduce those costs when implemented in commercial practice.
    I like to think of it as like the wind and solar industry 
about 15 years ago actually. A combination of Federal 
incentives such as those tax credits, when combined with 
Federal funding for research and demonstration, it--that's 
what's going to be needed to improve the technologies so the 
cost of CCUS and carbon capture can be reduced and replicated 
in commercial practice. That's again why the draft bill that's 
the subject of today's hearing is really important to achieve 
that objective.
    Members of our organization and the Electric Power Research 
Institute are constantly evaluating technology development 
needs that reflect the changing markets and policies that 
impact fossil fuel use in the power sector. And about every 3 
years those technology assessments are communicated through the 
publication of something we call an Advanced Fossil Energy 
Technology Roadmap, which we published the most recent version 
of last summer.
    And this Roadmap identifies pathways to accelerate the 
development of transformational coal and natural gas-generating 
options that include carbon capture. And the Roadmap identifies 
several transformational technologies that are also identified 
in the draft bill that can be available in the next 10 to 15 
years, and that can also provide dispatchable, low-carbon power 
that's needed to support the growth of renewables on the grid.
    These include novel fossil power cycles such as those that 
I believe Dr. Webb will refer to later through supercritical 
CO<INF>2</INF> cycles, and they also include processes or other 
technologies that are designed to facilitate the carbon--the 
capture of carbon at lower energy penalty and at cost than 
conventional methods that we have available to us today. These 
processes are inherently more efficient, resulting in fewer 
emissions and require less fossil fuel to be used to produce 
electricity.
    There's also specific research identified in the roadmap 
that is necessary to support these new cycles, including 
advancements in turbine technologies, high-temperature 
materials that are necessary to achieve those efficiencies. And 
their roadmap also outlines advances in carbon capture 
technologies that are designed to lower costs, and the 
development and testing of these technologies at test centers 
such as the Wyoming Integrated Test Center and the National 
Carbon Capture Center in Alabama. And again, all of these 
elements of our Roadmap recommendations are embodied in the 
draft legislation.
    It's important to recognize that some of these technologies 
are ready for testing today at some scale or even at some 
commercial demonstration-scale projects, and that's why it's 
critical that Federal policies support not only research and 
development but also the piloting and demonstrating of these 
innovative first-of-a-kind technologies, without which they 
would not likely succeed in the commercial markets. And this 
means annual Federal budgets should increase in the next 
several years to support the scale-up of these efforts, as 
outlined in the draft bill.
    It's also important to note that Congress ensure that new 
technologies that receive Federal funding through the research 
program and are demonstrated at facilities such as Petra Nova 
are not considered as a basis for regulating a federally 
mandated emissions standard. CURC very much supports the intent 
of Congress through the proviso included in the Energy Policy 
Act of 2005, which was enacted to alleviate private-sector risk 
with implementation of new early-stage technologies that are 
not yet economic or commercial. CURC urges Congress to maintain 
this proviso by adding it into the Fossil Energy Research and 
Development Act of 2019.
    I want to conclude by sharing some of the analysis that's 
been conducted by the CURC in ClearPath with modeling provided 
by NERA Economic Consulting and Advanced Resources 
International that shows that there are significant economic 
benefits to the U.S. if the technology development outlined in 
the roadmap is undertaken under a wide range of scenarios. Our 
analysis projects that up to 87 gigawatts of market-driven 
carbon capture deployment, paired with enhanced oil recovery by 
2040, could result in significant increase in domestic oil 
production, lower cost--and lower cost retail electricity 
rates, all of which contribute to substantial increases in 
annual GDP, as well as over 800,000 new jobs that are created 
by 2040. These macroeconomic benefits are described in more 
detail in my written testimony.
    Let me just close by saying we are pleased to testify and 
happy to answer questions.
    [The prepared statement of Ms. Angielski follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Lamb. Thank you very much. Mr. Holstein.

                  TESTIMONY OF ELGIE HOLSTEIN,

             SENIOR DIRECTOR FOR STRATEGIC PLANNING,

                   ENVIRONMENTAL DEFENSE FUND

    Mr. Holstein. Thank you, Mr. Chairman.
    The clean energy revolution is indeed underway. It is 
rapidly evolving into a global competition for market share in 
a world that is coming to understand how little time remains to 
avoid the disastrous impacts from climate change. As long as 
fossil fuels remain a part of our energy profile, we will need 
strategies to improve their environmental performance. The pace 
of global climate change is simply too fast, and the 
consequences of inaction too dire to do otherwise.
    To fight climate change, American leadership is desperately 
needed at home and internationally. It is crucial for us to 
remember, however, that even as we invest in ways to reduce the 
environmental impacts of fossil fuels and develop and deploy 
noncarbon alternatives, we still need an overarching economic 
policy framework. That framework should provide enforceable, 
declining, and economy-wide limits on carbon emissions, all on 
a timetable that avoids the worst tipping points associated 
with unconstrained and rising greenhouse gas concentrations. 
That means achieving net zero global greenhouse gas emissions 
by 2050.
    While we have not yet developed the bipartisan consensus 
needed to enact a carbon price and limit, an aggressive program 
to drive clean energy and climate innovation is within reach, 
and it's needed right now. Such an innovation portfolio will 
help build political confidence by accelerating the decline in 
the cost of emissions reductions.
    America has the intellectual capital, the research 
infrastructure, the workforce, and the manufacturing prowess to 
solve our technology and climate challenges, and we do need to 
do it all. In the context of today's hearing and the draft 
bills you are considering, that means mounting ambitious 
research, development, demonstration, and commercialization 
efforts.
    To be sure, there are some efforts and technology 
directions mentioned in the bills that may not prove out. That 
is, they may not reach the goals of cost-effective 
decarbonization and marketable, viable technology applications. 
The point is to find out. The point is to find out.
    The draft Fossil Energy R&D Act of 2019 wisely emphasizes 
the need for environmental integrity safeguards as part of any 
plan to develop and commercialize carbon management 
technologies. Such measures are needed to protect against 
haphazard and ineffective containment of CO<INF>2</INF>. We 
strongly endorse such measures as a key element of any carbon 
reduction policy or program.
    The draft Fossil Energy R&D bill also instructs DOE to 
undertake a research program to identify the best methods and 
to assess the state of technology for preventing and detecting 
methane emissions from the Nation's extensive natural gas 
infrastructure. Now, I think many Members of this Committee 
have heard me say in previous testimony that natural gas, as we 
know, is mostly methane, and when it leaks or is vented into 
the atmosphere, it is more than 80 times as potent as CO<INF>2</INF> 
over the first 20 years following its release in terms of the 
damage it does to the climate. In fact, methane is responsible 
for about 25 percent of the global warming we are experiencing 
today. We welcome the methane provisions in the draft bill.
    The Industrial Decarbonization Technology Development Act 
(IDTDA) tackles another aspect of controlling greenhouse gas 
emissions. The power sector has seen many innovations that hold 
the promise of decarbonizing and building resilience in our 
electricity sector, but other sectors, including buildings, 
process industries, shipping, aviation, and manufacturing have 
not experienced the same level of technology innovation and 
adoption.
    That's why the IDTDA offers a promising new focus on 
opportunities to drive industrial decarbonization. Of 
particular value is the bill's creation of two new entities 
designed to leverage those capabilities. First, it creates an 
advisory committee to bring to the Department the best of 
government and private-sector expertise in developing needed 
new technologies.
    Second, it helps the Department overcome an area of long-
standing weakness: Translating technology development into 
commercial deployment. The clearinghouse function for best 
practices and technology should be seen not only as a way to 
accelerate emissions reductions but also as an ingredient of 
national industrial competitiveness. And I think the Members of 
this Committee have seen how ARPA-E (Advanced Research Projects 
Agency-Energy) has done precisely that--taken new technologies, 
helped to commercialize them, and get these industries moving 
forward so that America can have a competitive edge in global 
markets.
    Taken together, these two draft bills represent a strong 
step in the direction of answering the key question about 
decarbonization: What works, and then getting solutions into 
the market.
    Thank you for the opportunity to testify today, and I look 
forward to answering any questions you may have.
    [The prepared statement of Mr. Holstein follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Lamb. Thank you. Mr. Bobeck.

                    TESTIMONY OF JEFF BOBECK,

              DIRECTOR OF ENERGY POLICY ENGAGEMENT,

             CENTER FOR CLIMATE AND ENERGY SOLUTIONS

    Mr. Bobeck. I'm here representing the Center for Climate 
and Energy Solutions or C2ES. We're an independent, nonpartisan 
organization with a mission of advancing real-world solutions 
on climate-related policy. We convene the Business 
Environmental Leadership Council, a group of 34 industry-
leading companies. We partner with the U.S. Conference of 
Mayors and, relevant to today's topics, we co-convened the 
Carbon Capture Coalition, which has grown to more than 60 
participants.
    C2ES considers carbon capture to be an essential component 
in the comprehensive response to climate change for two 
reasons. Despite the growth in renewables, we expect that some 
level of dispatchable emissions-abated fossil-powered 
generation will be needed for decades to come. Mr. Weber 
mentioned 64 percent. Well, we're not going to turn that off by 
2030.
    Second, the manufacturer of products like steel, cement, 
and methanol produce greenhouse gas emissions as part of their 
basic processes. Carbon capture provides promising pathways to 
address both issues.
    The International Energy Agency repeatedly has concluded 
that approximately 12 to 15 percent of greenhouse gas emissions 
must come from carbon capture by 2050 if the 2-degree warming 
scenario is to be met. Moreover, IEA found that removing carbon 
capture from the emissions reduction toolbox would more than 
double the cost of keeping warming below 2 degrees. In the 
United States, the ongoing improvements in efficiency and cost 
of carbon capture owe much to the work of DOE's Fossil Energy 
R&D program and the work conducted by the National Energy 
Technology Laboratory or NETL.
    Mr. Chairman, as you mentioned, I grew up in Pennsylvania's 
present-day 17th District, and I remember well our school field 
trip to what was then called the U.S. Experimental Mine. That 
facility became a national laboratory in 1999 and now, drawing 
on more than a century of history, NETL is the home of some of 
the most forward-looking energy research anywhere in the world.
    However, the program still operates under its 2005 
authorization, thus many of its current research objectives 
such as carbon utilization and direct air capture were not 
envisioned by Congress at that time. The Fossil Energy Research 
and Development Act brings the program's statutory direction 
into the modern era, providing updated program guidance while 
allowing for flexibility as priorities change and technologies 
develop. It would establish regional centers to address region-
specific capture, storage, and utilization needs, and it would 
provide higher funding authorization levels, which a wide 
variety of stakeholders, including industry, labor, and NGOs, 
would support.
    One area of research targeted by the bill I mentioned is 
carbon utilization, which C2ES believes holds great promise as 
a pathway for decarbonization, especially for industry. We will 
soon publish a new report on the subject detailing how 
utilization can be especially effective in addressing harder-
to-decarbonize industrial sectors. The legislation before the 
Committee today could help to accelerate carbon utilization's 
development and deployment.
    The second bill before the Committee today, the Industrial 
Decarbonization Technology Development Act, would elevate the 
issue of industrial emissions to provide better cross-agency 
coordination of policy. Because industrial challenges for 
steelmaking in Pennsylvania are different from those for 
chemical processing in Texas, the bill would also seek better 
intergovernmental cooperation and would require development of 
a national roadmap for decarbonization of difficult-to-
decarbonize industries.
    Allow me to close by saying a word about innovation. 
Innovation is not an end in itself but rather a means to 
deploying a more effective and economical greenhouse gas 
reduction. The seeds planted by federally supported innovation 
will not bear fruit without the enactment of other 
complementary policies without commensurate action at the local 
and State levels and certainly not without strong commitment by 
the private sector to shoulder some of the risk.
    And we're behind. While nearly 40 million metric tons of 
carbon dioxide are currently stored or utilized annually around 
the world, the amount of carbon dioxide capture needs to grow 
by a factor of 100 by 2040 if carbon capture's necessary 
contribution to greenhouse gas reduction is to keep pace.
    No proposed single policy reform offers a silver bullet, 
but rather a portfolio of policies is needed to address 
technology development, financing, and marketing preferences. 
But one thing at a time. We commend the Committee for 
proactively proposing thoughtful climate policies within its 
jurisdiction, and we look forward to working with you going 
forward. Thank you for your attention.
    [The prepared statement of Mr. Bobeck follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Lamb. Thank you. Ms. Burns.

                    TESTIMONY OF ERIN BURNS,

                  DIRECTOR OF POLICY, CARBON180

    Ms. Burns. Thank you for the opportunity to testify today. 
I'm the Director of Policy at Carbon180, which is an NGO 
focused on carbon capture, removal, and use with the goal of 
building an economy that sequesters more carbon dioxide than it 
emits. We choose to work on these issues for one reason: 
Climate. We have a responsibility to take immediate and 
ambitious steps to avoid the worst impacts of climate change, 
and carbon removal, alongside renewables, energy efficiency, 
and other emissions reduction efforts, can play an integral 
role in eliminating global emissions.
    At the same time, we also have an opportunity to turn these 
carbon emissions into an asset, spurring American innovation 
and growth. We are supportive of the Fossil Energy Research and 
Development Act, as well as the Industrial Decarbonization 
Technology Development Act. My testimony will focus primarily 
on the first bill, which we support for three major reasons.
    First, this bill establishes the first-ever dedicated 
carbon removal program at the Department of Energy. That term 
carbon removal refers to a broad set of technologies and 
practices that remove carbon dioxide from the ambient air all 
around us and includes a technology called direct air capture. 
While direct air capture is a relatively new technology, there 
are nearly a dozen small-scale plants deployed today with plans 
recently announced to build a plant that would build remove 
half a million tons of carbon dioxide a year.
    To bring this technology to scale in time to meet climate 
goals and to maintain American leadership on innovation it's 
time for the Federal Government to significantly increase 
support for carbon removal. Luckily, we know how best to do 
that. Toward the end of last year, the National Academies of 
Sciences (NAS) released a report that detailed how the Federal 
Government can effectively move carbon removal forward. One of 
their most important recommendations was to implement an 
ambitious Federal Research, Development, Demonstration, and 
Deployment program for direct air capture and other carbon 
removal approaches.
    To date, the Department of Energy has spent around $11 
million ever on direct air capture, far below the tens and 
hundreds of millions of dollars of annual funding recommended 
in this NAS report. This legislation would scale up those 
efforts and get us far closer to the levels recommended. The 
Office of Fossil Energy has a long history of work on carbon 
capture technologies, and that expertise is well-suited to 
tackling the challenges around other technologies like direct 
air capture.
    The second reason we support this bill is because it 
expands the carbon capture program to include natural gas and 
industrial applications. With the rapid growth of natural gas 
in the U.S., it is essential that the Office of Fossil Energy 
expand its historical focus beyond carbon capture applications 
for coal power plants to also include work on natural gas 
plants.
    Carbon capture is also essential to reducing emissions in 
the industrial sector, which represent about around one-fifth 
of total U.S. emissions. We need to begin decarbonizing the 
production of steel, cement, and other industrial processes 
today. Efficiency, certain renewables, applications, and 
advanced nuclear can all play a role. However, carbon capture 
will continue to be an important part of decarbonizing this 
sector. The provisions in this bill to incorporate work on 
carbon capture for natural gas and industrial plants reflect 
the reality of our changing electricity generation mix and are 
key to helping us meet climate goals.
    We are also very supportive of the Industrial 
Decarbonization Technology Development Act. It is essential 
that the U.S. work on a broad set of technologies, including 
but not limited to carbon capture, to rapidly reduce and 
eliminate industrial emissions. This bill is an enormously 
important step toward that goal.
    The third and final reason we support the Fossil Energy 
Research and Development Act is because it builds on the Office 
of Fossil Energy's great work on carbon utilization. Taking 
carbon dioxide from smokestacks or the ambient air and turning 
it into commercial products such as plastics, fuels, or 
building materials is what we call carbon tech, and it offers a 
promising near-term opportunity to begin commercializing the 
technologies needed for an economy where we remove more carbon 
than we emit. There are dozens of these carbon tech companies 
and startups in the United States today, and the U.S. is home 
to more of these projects than any other country in the world.
    We have an opportunity to build a significant domestic 
carbon tech industry. In fact, according to our analysis, 
there's a $1 trillion total available market for these products 
in the U.S. alone and a nearly $6 trillion total available 
market globally.
    To date, the Office of Fossil Energy has spent only about 
$10-$12 million annually on carbon tech research and 
demonstration funding. They've done some really great work, but 
they can do more and better work. This bill would nearly triple 
our current annual investment in these technologies and put the 
U.S. in a much stronger position to fully take advantage of 
this enormous economic opportunity.
    Carbon capture and removal are key to addressing climate 
change and can help drive economic growth, and Federal policy 
action today can help unlock both opportunities. As Congress 
considers climate policies like this bill, we recommend looking 
to examples like the Carbon Capture Coalition and similar 
efforts where a broad set of participants, including 
environmental organizations, labor unions, startups, large 
companies, and others have helped drive policy development and 
advocacy. Engagement with labor unions in particular, who have 
been foundational for carbon capture work historically, is key 
to unlocking the full economic potential of carbon capture, 
removal, and use.
    Thank you again for the opportunity to be here today. 
Carbon180 strongly supports the Fossil Energy Research and 
Development Act and the Industrial Decarbonization Technology 
Development Act, and we are grateful for the hard work of the 
Committee, staff, and others who have put these bills together. 
And I look forward to your questions. Thank you.
    [The prepared statement of Ms. Burns follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Lamb. Thank you. And, Dr. Webb.

                 TESTIMONY OF DR. ERIK K. WEBB,

              GEOSCIENCE RESEARCH AND APPLICATIONS,

                  SANDIA NATIONAL LABORATORIES

    Dr. Webb. Chairman Lamb, Ranking Member Weber, and 
distinguished Members of the Committee, I want to thank you for 
the opportunity to testify today regarding the importance of 
fossil energy research.
    I'd like to make four points. First, subsurface science is 
extremely complex and requires a spectrum of research 
activities that are applied from 10 kilometers below to the 
surface of the earth and over 12 orders of magnitude in scale. 
They address the interplay of mechanical, thermal, chemical, 
biological, and hydrological behavior. Our most challenging 
program is getting accurate in situ data that represents the 
heterogeneity in these deep high-temperature and high-pressure 
environments. Thus, basic materials science and 
microelectronics research are essential to build new sensing 
systems to withstand these subsurface conditions.
    Sandia is working to integrate this basic science with 
geomechanical testing, modeling, drilling technology, data 
tools, and high-performance computing to build a next 
generation of real-time sensing decision approaches and tools 
to address this complexity.
    Second, subsurface research that is applicable to oil and 
gas production is equally valuable to enhanced geothermal 
production, understanding and implementing carbon 
sequestration, nuclear waste disposal, environmental 
restoration, basic research in geosciences, water resources 
management, and multiple national security needs.
    Historically, we can see this in the development and 
application of the polycrystalline diamond compacts that are 
embedded in drill bits which were successful due to DOE's 
investment and are now used for the vast majority of oil and 
gas wells. They are also essential for enhanced geothermal 
energy production and carbon sequestration, accessing deep 
crustal basic science research and national security 
applications.
    A more recent example is the EGS Collab project funded by 
DOE's Geothermal Technologies Office that involves nine 
national labs and numerous academic and industry partners. This 
project is studying the interplay of stress, seismicity, and 
permeability. This understanding is also essential for 
preventing induced seismicity and accurate global nuclear test 
detection programs. Additionally, this type of research builds 
knowledge and tools and human competence to--in preparation for 
national emergencies such as the Deepwater Horizon, the Aliso 
Canyon methane leak disaster, and the emerging challenge of 
wellbore integrity. Utilizing research across these challenges 
is enhanced when the sponsoring organizations recognize and 
encourage cross-use of the science space.
    Third, the complexity of these earth systems motivates 
cutting-edge research. The Earth is itself our largest and most 
complex data set. Efforts such as NASA's Earth-Observing Data 
and Information System are rapidly digitizing the Earth. 
However, they estimate the volume of data in this one archive 
will increase to 247 petabytes by 2025. This is very big data 
and will truly tax our data analytic and artificial 
intelligence tools. One of Sandia's investments in this area is 
the development of a Real-Time Subsurface Event Assessment and 
Detection capability we call RESEAD to enable a step change in 
real-time continuous monitoring, advanced analysis, and 
decision-based management of the subsurface.
    Fourth, the Nation benefits from utilizing the technical 
capabilities of the whole national laboratory system. The labs 
do not replace or compete with industry but instead fill a role 
in early-stage research of high fiscal risk or integrating 
across multiple disciplines. The National Energy Technology 
Laboratory is the Department of Energy's lead for fossil energy 
research. However, investments by other DOE offices builds 
capability in each of the national laboratories that can 
benefit fossil energy missions. This works best when the 
Department of Energy encourages connection across the whole of 
the national laboratories, academia, and industry. Sandia 
National Laboratory's experience bears out these four main 
points.
    Thank you for the opportunity to provide testimony on the 
importance of fossil energy research. I would like to express 
my gratitude to the team of colleagues at Sandia who helped 
prepare for this hearing. We are energized by the challenges 
that face our Nation and are grateful for the attention your 
Committee pays to them. Thank you for convening this hearing, 
and I look forward to your questions.
    [The prepared statement of Dr. Webb follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Lamb. Thank you. We will now begin our first round 
of questions, and I will recognize myself for 5 minutes.
    Ms. Burns, if I could start with you, you talked a little 
bit about the economic potential of carbon utilization in the 
growing market that we have. I believe you sort of implicated 
in your comments we have an example of it already happening in 
my district with the cracker plant that the Shell Corporation 
is building basically in order to create polyethylene out of 
the runoff from natural gas drilling. There was a note in the 
table in your testimony about polyethylene being an example of 
what you refer to as carbon tech.
    So could you maybe address that in a little bit more detail 
about the economic potential that you see and how it's 
currently connected to things that are implicated in this bill? 
You know, what are the investments that we are making that may 
be likely to build on the progress we're already seeing in that 
space?
    Ms. Burns. Absolutely. We did a market-sizing report that I 
mentioned that showed that there's a $1 trillion total 
available market in the U.S. for this carbon tech--for carbon 
tech goods. And in particular, as you mentioned, we see 
opportunities in certain sectors. Building materials, chemicals 
and plastics, and fuels are, I think, three of really the 
biggest. There are also things like specialty materials. 
There's a startup near D.C. actually making carbon nanotubes 
out of captured carbon dioxide.
    And though--this bill does I think a couple of really 
important things for the carbon tech industry. The first is it 
really ramps up the investments we make in these technologies. 
To date, we spend about $10-$12 million a year. A lot of that's 
really focused on algae applications. That's really great, big 
fans of algae. There's a lot more out there. And so scaling 
this up is going to allow us to support other applications of 
carbon dioxide and carbon tech.
    The other thing it does is to scale up deployment of carbon 
capture and direct air capture technologies where we're going 
to have more feedstocks of captured carbon dioxide, there are 
already I think 80-plus projects here in the U.S. We have more 
than any other country in the world, and if we invest in these 
companies today, many of which are small-scale startups though 
there are some larger examples like you talked about, as well 
as LanzaTech and other companies, that we have an ability to 
take advantage of that and reap those economic benefits here in 
the U.S.
    Chairman Lamb. I agree, thank you. And we've already seen 
great success at NETL with the development of new membranes, 
which is exactly the type of technology that if we develop here 
we would be able to sell probably anywhere in the world, so 
that's been great work by them.
    This is a question for the group. It seems to me that a lot 
of the demonstration-scale projects in the power sector that 
have done in the past were done sort of before or during the 
early phases of the natural gas revolution, and many of them 
were focused on coal rightly. That made a lot of sense at the 
time. But we're in a new era that has happened very quickly. So 
if anyone is prepared to talk about the practicalities of a 
demonstration-scale natural gas plant with carbon capture, how 
soon we can get there, how our legislation or future 
legislation that we might do would impact that or help us, that 
would be very helpful.
    Ms. Angielski. I'll start with this. One thing that I want 
to point out at least with post-combustion carbon capture is 
that it is a very--has a lot of broad applications among a 
variety of industries. So in the power sector it can have a 
broad application in both coal or natural gas applications, and 
then on the other industrial sectors that are covered in the 
other bill that you're looking at, it's really sort of the 
solvents that are inside the equipment that need some of these 
slight modifications that can be utilized among a variety of 
industry applications.
    So it's important to note that I think that the Federal as 
well as the private-sector investments that are going into 
these technologies, no matter what the fuel type is that 
they're being designed for, are going to have a lot of 
applicability to other sources of natural gas or other 
industrial flue gases. I think where we are right now is that 
we need to take that research and we need to start testing it 
in other industries or more broadly across these other fuel 
sources. And I think----
    Chairman Lamb. Yes. No, I agree with that, absolutely. I 
just think that when you look at the numbers, for example, of 
what it could do to the electricity cost coming out of a coal 
plant versus a natural gas plant, they might be very different. 
I think we would probably learn things along the way if we were 
able to demonstrate that.
    The last point I wanted to make before I ran out of time 
was, Mr. Holstein, you did talk a little bit about methane 
detection and the prevention of leakage, and I wanted to 
commend the Environmental Defense Fund, which did some great 
work in the Pittsburgh area on our residential gas delivery 
system in detecting leaks. I think CMU (Carnegie Mellon 
University) and Google were a partner and actually drove all 
around the city of Pittsburgh to do that.
    So can you describe maybe in just slightly more detail, and 
then I'm out of time, the way that our efforts in this bill 
will help us do that on a wider scale throughout sort of the 
lifecycle of natural gas as it comes out of the ground through 
the distribution network?
    Mr. Holstein. Absolutely. And the two questions you've 
asked are clearly linked at least in my mind in that the best 
starting place is to stop the leaking we already know about. 
And the good news there is that the private sector has 
responded with the development of lots of new advanced leak 
detection tools that, according to one of the companies, are 
1,000 times more sensitive in detecting methane leakage than 
they were just a short time ago.
    Those tools are being mounted on vehicles, as we did in 
Pittsburgh and nine other American cities and will be rolling 
out in other cities around the world soon or they can be in 
drones or light manned aircraft. So there are multiple 
opportunities to put in place the technologies that can help 
decarbonize the oil and gas sector in significant ways using 
technologies that are available right now.
    And, what do they cost? About a 40 percent reduction in 
methane emissions from the oil and gas sector can be cut right 
off the top using current technologies costing less than 1 
penny per 1,000 cubic feet of gas produced annually. So these 
are definitely cost-effective technologies that are in the 
marketplace.
    My description of the applicability of these bills to those 
challenges simply is that, as I said in my testimony, it's 
terribly important that, as we move forward with any of the 
technology pathways that are discussed in the legislation, we 
have environmental guardrails, if you will, around that work. 
So for example, we have to monitor and keep track of what is 
potentially leaking into the atmosphere. If we sequester 
carbon, we need to be sure that it stays there, let's say in a 
geologic formation, and so these technologies begin to multiply 
in terms of their benefits as----
    Chairman Lamb. Thank you. And I probably have to cut you 
off there to get to the other Members.
    Mr. Holstein. Sure.
    Chairman Lamb. Thank you very much. I now recognize Mr. 
Weber for 5 minutes.
    Mr. Weber. Well, Mr. Chairman, I would have yielded you 
another minute if you'd yield me 2. So I thank you, Mr. 
Chairman, for that.
    This actually is for all the witnesses. We talk a lot about 
developing technologies to capture CO<INF>2</INF> from existing 
power plants, but we also know that the economics for capturing 
CO<INF>2</INF> won't work, and I can give you the ARA money 
spent on the air products CO<INF>2</INF> capture sequestration 
storage unit in my facility in my district in Port Arthur and 
some of the others. It's got to be in the right place, it's got 
to be close to a pipeline, it's got to have somebody that can 
use it. And of course the example we use most often is enhanced 
oil recovery. All of those factors have to fit.
    So I'm aware that not every region has those kind of 
properties where all of this fits nicely together. So my 
question is what about the rest of the country? Is it carbon 
capture in the way we often think about it, or is it a new way 
of producing power like using supercritical CO<INF>2</INF> 
instead of steam? How do we make sure we're developing these 
truly kinds of revolutionary technology for the future across 
the country?
    And, Ms.--
    Ms. Angielski. Angielski.
    Mr. Weber. Angielski, I'll start with you.
    Ms. Angielski. OK. Thank you. I think that it's important 
to point out that there are at least a number of storage 
reservoirs that we are blessed with geology in this country, 
and so those storage reservoirs are not just enhanced oil 
recovery reservoirs. And so I think that will help to expand 
our regional opportunities for actually siting some of these 
projects or the technologies even in the Midwest, I mean, in 
Ohio, in those regions there are regions where we have really 
good secure geologies that we can store CO<INF>2</INF> for 
millennia. And we're--and the DOE is actually working----
    Mr. Weber. For a millennia?
    Ms. Angielski. Well, that's my word, but yes, for at 
least----
    Mr. Weber. A long time.
    Ms. Angielski [continuing]. A very long time. And so--and 
then, you know, others on the panel can speak to--you know, as 
Erin has already pointed on some of the CO<INF>2</INF> 
utilization pieces of this but----
    Mr. Weber. Well, if I may, so would you be in favor of 
building a pipeline system that actually helped us transport 
that across the country for use, taking methane and CO<INF>2</INF> 
out of the air and actually sending it through pipelines to the 
various industrial areas where they could actually use it?
    Ms. Angielski. So there are analysis--there is analysis 
that is looking at building some of those pipelines and some 
larger pipelines that they call trunk lines that could take the 
CO<INF>2</INF> from those industrial sources and actually move 
it to those storage reservoirs either through enhanced oil 
recovery or otherwise.
    Mr. Weber. OK. Let me go to you, Mr. Holstein.
    Mr. Holstein. You know, that's a darn good question. A lot 
of the answer to the question about the need for a national 
pipeline network will be driven by the demand for, in this 
case, CO<INF>2</INF>. I think it's more likely, as we sit here 
today--and others on the panel may disagree with this--but I 
think it's more likely that we're going to find other ways to 
use CO<INF>2</INF> if we're able to----
    Mr. Weber. So would you transport it by tank car or by 18 
wheeler----
    Mr. Holstein. Well----
    Mr. Weber [continuing]. Put more trucks or vehicles on the 
highway?
    Mr. Holstein. Well, first, I would say that the markets are 
likely to develop regionally. In other words, if these 
technologies are applicable nationwide, there's no reason why 
we couldn't develop regional and even local markets for that 
CO<INF>2</INF> that is captured. And so we may not need a 
national network of pipelines.
    Mr. Weber. But would you agree the economy of scale for an 
area that's unlike Texas where we have a lot of refining on the 
Gulf Coast--for example, 65 percent of the Nation's jet fuel is 
produced in my district--it's a little more difficult than in 
some of the other States where you don't have that kind of 
industry to capture CO<INF>2</INF> whether it's out of the air 
or whether it's from a power-generating facility, which we 
have, which is in Pete Olson's district. And I've been there. 
It's a little more difficult for those more rural areas to 
really have a market for that, so how do you capture that 
CO<INF>2</INF> and get it to market?
    Mr. Holstein. Well, I think under this scenario I was 
discussing I'm not necessarily talking about concentrations of 
petrochemical production but rather suppose you're capturing 
the CO<INF>2</INF> from power generation, as you just 
mentioned----
    Mr. Weber. Sure.
    Mr. Holstein. There's no reason why that couldn't be 
useful, let's say, in the Northeast or the Midwest.
    Mr. Weber. But it's for enhanced oil recovery for the most 
part.
    Mr. Holstein. And for enhanced oil recovery is exactly what 
I meant when I talked about----
    Mr. Weber. All right. So if they don't have----
    Mr. Holstein [continuing]. Regional uses.
    Mr. Weber [continuing]. Oil wells up there like we do in 
Texas, there's not really much of a market, is there?
    Mr. Holstein. Potentially in Pennsylvania if you're asking 
about enhanced oil recovery.
    Mr. Weber. Right. Well, I'm out of time, so I apologize to 
the rest of you.
    So, Mr. Chairman, I'm going to yield back.
    Chairman Lamb. Thank you. I recognize Mrs. Fletcher for 5 
minutes.
    Mrs. Fletcher. Thank you very much, Chairman Lamb and 
Ranking Member Weber, who is my neighbor at home in Houston, so 
I have a similar interest in a lot of these issues. And of 
course I represent Texas' 7th Congressional District. I 
represent the energy corridor, and it is of course the heart of 
the energy renaissance that we've been experiencing over the 
last decade or so. And so a lot of these issues are really 
critical, and I think technology is a huge piece of our path 
forward, and carbon capture technology in particular.
    So we've already touched on a couple of things that I want 
to follow up on and give some of you a chance to expand some of 
your answers with the time constraints. But I want to start 
first with a question for Ms. Burns. In your testimony you were 
talking about turning carbon capture into an asset, and I think 
it would be very helpful if you could just elaborate on that 
and also touch a little bit on the difference between--or kind 
of describe the technologies associated with the direct air 
capture, which I think is very different from what we've seen 
in these pilot plants, one of which is in Mr. Weber's district, 
and of course my other neighbor Mr. Olson, who has the Petra 
Nova plant in his district. If you could touch on those, I 
think that would be helpful.
    Ms. Burns. Absolutely. So to your first question about what 
we can do with the carbon dioxide once it's captured, you had a 
question about enhanced oil recovery and where these might be 
located. That's obviously where we see a lot of CO<INF>2</INF> 
utilization today. However, we think that there's a huge 
potential to create more markets for CO<INF>2</INF> in other 
types of applications. Right now, we do see some applications 
for things like beverages and food or some niche applications 
like greenhouses.
    But we think that being able to--you can take these and 
turn them into things like fuel. So I would use an example. 
LanzaTech is a company that has a project here in the U.S. They 
actually recently flew--they partnered with I think it was--was 
it Virgin? To fly a plane from Florida to London on fuels made 
from captured carbon oxides. We have a huge opportunity there.
    And a lot of these fuels compared with conventional 
gasoline, if you make them from--if you capture carbon dioxide 
with direct air capture, those fuels that you can create from 
that captured carbon dioxide can be as much as 90 percent less 
carbon-intensive than traditionally produced gasoline.
    To your second question about technologies for direct air 
capture, there are a bunch of options. The one that we hear the 
most about is direct air capture. There are three leading 
companies right now, one of which is a U.S. company, and they 
have about 11 projects between them. And what this technology 
does is instead of carbon capture technology that's installed 
on a smokestack so at a power or industrial facility, you're 
actually able to take it from the ambient air.
    So again to your point, where you're going to see these, 
you don't run into the same kind of challenges around geology, 
pipelines, enhanced oil recovery when you're thinking about 
direct air capture. You can actually site them in lots of 
different places.
    And the other thing I would say--the last thing I would say 
is that there are three companies we're really excited about 
the work they're doing. There was recently a project announced 
that will capture half a million tons a year. That's huge. 
That's a really big deal. But we want a really robust ecosystem 
of companies in this space. We want more than three. We want 
more than three technologies. We want to help drive down the 
cost of innovation. And the provisions in this bill to create 
the carbon renewable program will help get us there.
    Mrs. Fletcher. Thank you. And I just have a quick follow 
up. You mentioned the three companies. So it seems like this is 
an opportunity for the United States to have a leading role. 
Who are the other companies or where are they located the 
companies that are working on this as well?
    Ms. Burns. Sure. So Global Thermostat is a U.S. company and 
they have a facility in Alabama I believe. Then we've got 
Carbon Engineering, which is a Canadian company, and then 
Climeworks, which is a company in Switzerland.
    Mrs. Fletcher. OK. Terrific. Thanks. And I also want to 
follow up and maybe I can just put this out to the panel for 
anyone who wants to take this on. But I think one of the 
comments that you made, Mr. Holstein, was about kind of the 
other ways we can use the carbon. And we heard a little bit 
from Ms. Burns about that. But I think one of the challenges 
that we've seen across the board is, for whatever these other 
uses are, how can we move this from sort of interesting ideas 
and technologies to something that is--how do we make it 
economic and something that is commercially viable so that we 
can start having this direct air capture or we can have 
increased CCUS activity given where we are now? How do we move 
that forward?
    Mr. Holstein. Two quick answers, and I'm sure other 
panelists would have ideas. One is that's why we have 
provisions in these bills that emphasize commercialization. 
We've been too afraid of commercialization. When I say we, I 
don't just mean Congress. I mean the environmental community 
and others. We don't like the idea of choosing technology 
winners, but that's not what this is about. This is about 
identifying sectors in which we need to make a leap forward 
technologically speaking just as we did with the space program, 
just as we've done in health and medicine. And as I say in the 
very first paragraph of my testimony, this is a competitive 
economic race, not just a race against time as far as climate 
change is concerned.
    So one part of the answer is we're going to focus more on 
commercialization and fund those activities, and number two, 
it's been great to see how Congress has come around on a 
bipartisan basis to fund organizations like ARPA-E that know 
how to move things from the workbench past the technology 
``valley of death'' and into the marketplace.
    Mrs. Fletcher. Thank you very much, and I see I've gone 
over my time, so I will yield back. Thank you all.
    Chairman Lamb. I recognize Mr. Cloud for 5 minutes.
    Mr. Cloud. Thank you, Chairman. I think I'm the third Texan 
in a row, so I appreciate you, Chairman, on hosting this 
important topic, Ranking Member Weber. This is a very key topic 
certainly with national security, economic implications.
    I come from Texas as well, and we have a very diverse 
energy portfolio with wind energy, oil, LNG all in our 
district, and so I really appreciate the fact that we can have 
some of the discussions that have gone on here, a real 
pragmatic, solution-oriented discussion in this Committee, and 
so I appreciate that, Chairman and Ranking Member.
    Dr. Webb, I was wondering if you could talk to us--we just 
mentioned commercialization. How does Sandia encourage private 
companies to take on the commercialization of basic research 
applications? Your written testimony talks about the bayonet 
reactor and other projects. Could you expand on that?
    Dr. Webb. The basic approach to commercialization involves 
one of two processes. If we have identified something in the 
early research stage that's promising, we'll make an 
announcement--a public announcement, so there's fairness of 
opportunity--to U.S. industries to come and join us in that 
research process. And so we would then share that intellectual 
property between the U.S. Government and the industry, and they 
would at the end of that research process be experts in that 
technology. And that's an excellent sort of process we call 
cooperative research and agreement process.
    Second, if we've made investments whether it's through DOE 
funding or through our internal lab-directed research and we 
have breakthroughs, we will go through a process of patenting 
that research and then again we make that available in a 
fairness-of-opportunity process. And there are a number of 
other tech transfer mechanisms that are used. Sometimes we 
would allow staff to go for a 2-year leave of absence to work 
for those companies to carry that research into application. 
And so it's really our objective to ensure it gets used, and we 
have multiple of those mechanisms to do that. So the examples 
in my testimony really are examples of individual technologies 
that have gone out, but embedded in there are these processes 
that allow us to do it.
    Mr. Cloud. Would you care to mention a couple of those 
projects that have been successful that you----
    Dr. Webb. Well, certainly, the one that I mentioned in my 
initial testimony, the PDC bits, we did not patent that, but 
that was done with industry, and now it's being used for 90 
percent of the wells and holes drilled in the--on the planet. 
That's an extremely obvious successful example.
    The bayonet technology that you brought up that I also 
mentioned is one that converts methane to farm fertilizers and 
other kinds of precursor chemicals. That's been commercialized. 
It's been transferred to small industry. There are wellhead-
scale demonstration projects under our commercial process 
underway.
    And then we've got this Memzyme technology, which is 
another one of these CO<INF>2</INF> capture technologies that's 
basically biomimetic. It's patterned after the wall of a cell 
in the human body, and that technology has been commercialized 
through a partnership with the University of New Mexico and is 
now getting put into application.
    Mr. Cloud. And could you speak to some of the work that the 
lab has done on carbon capture in underground reservoirs?
    Dr. Webb. So we have really two focal areas. One is to 
understand what happens to CO<INF>2</INF> when it is injected 
into the subsurface. It goes into pores, fractures and pores in 
the subsurface, but does it stay in a liquid form? Is it 
mineralized? Does it become permanent in that place? And a lot 
of that work was funded under the DOE Office of Science in a 
series of research projects, 9 years with the University of 
Texas, and that was very successful in producing a science base 
for what happens in the subsurface.
    We're also part of one of the field demonstration 
activities where we're doing an enhanced oil recovery 
demonstration project in the Farnsworth Formation in the 
Panhandle of Texas. And that's allowing us to monitor the front 
or the movement of the carbon dioxide into the subsurface using 
geophysics and other tools to watch that process and understand 
where it goes and how long does it stay there, and is it 
captured?
    Mr. Cloud. I only have 10 seconds left, but let me just say 
I appreciate the work on practical solutions for an American 
solution. I thought that technology is more the answer than it 
is retreating to a pre-industrial age America, so I appreciate 
the work that all of you all are doing in this area. Thanks so 
much for being here.
    Chairman Lamb. I recognize Ms. Horn for 5 minutes.
    Ms. Horn. Thank you very much, Mr. Chairman, and thank you 
for holding this hearing, Mr. Chairman and Ranking Member. And 
thank you to the witnesses for being here.
    I agree with many of my colleagues. This is a critical 
issue that we have to solve in a thoughtful, intentional 
manner.
    Coming from Oklahoma, it may sound a little bit like Texas. 
We of course have a strong presence of diverse energy sources 
from hydrocarbon to natural gas, wind, and solar. And since 
2005, we've seen in Oklahoma and other places, reductions in 
greenhouse gas emissions in part because of increased 
deployment of renewable energy sources, as well as less 
reliance on coal-fired electric generation, especially through 
the use of natural gas.
    And this I'm going to open up to the whole panel is I'm 
curious for any of the witnesses what you see as the role of 
natural gas playing in this transition process to more 
renewable sources?
    Mr. Bobeck. Thank you for that question. That's a great 
question. C2ES has convened an advisory committee of industry 
precisely because there's not a lot of talk about what the path 
forward for carbon capture and natural gas is. There's been 
such a great gain in terms of greenhouse gas reduction from 
fuel switching that some people want to rest and say, well, 
we're OK now.
    Well, eventually, we will have to capture the emissions 
from natural gas for a variety of reasons. One of those reasons 
is it is a world market. The world will demand low-carbon fuel. 
So--or, excuse me, low-carbon power. So we've really been 
trying to focus on what are the answers for the path forward. 
One is obviously a reduction in cost, and that's what this bill 
before us today is all about. You know, the carbon capture 
program is aimed at lowering costs across the board. The other 
is building out a network of pipelines that will reduce the 
cost of transportation.
    But, you know, again, we expect this all to begin to 
intersect in around the 2030 range, but it needs help. There 
are a variety of policies that you all should be looking at 
that can help it. And I'll leave it there.
    Ms. Horn. Thank you very much. This question is for Mr. 
Bobeck and Ms. Burns. As you know--and this is follow-on from 
the first part of the question, that over half of our 
electricity generation in this country still comes from coal 
and natural gas. And even as the percentage of electricity from 
fossil fuel generations continues to reduce, we still have work 
to do to manage this transition.
    So, as we do that, not only thinking about the 
environmental cost but also the economic cost and how we can 
incentivize this, I'm curious to hear your opinion about the 
realistic transition in technologies and the movement between 
these sources that it's going to take and what innovative ways 
that you might suggest that we look at as a Congress to help 
move this along.
    Ms. Burns. Sure, I'm happy to make a couple comments, and 
then I'm sure Shannon has some that are even more insightful.
    So I'll tell you I think this bill is a very--is a really 
important first step. As you mentioned, a lot of the carbon 
capture research has been really coal-focused. As Jeff 
mentioned, this is operating off of an authorization from 2005. 
Our reality today is very different. Those kinds of--the robust 
R&D programs that we're seeing here are really important.
    I think another provision that's really important in this 
bill or something else that's really important in this bill 
that goes to both of your questions about changing electricity 
mixes is that there are places in here were the Office of 
Fossil Energy also has to work with the Office of Energy 
Efficiency and Renewable Energy. And as we see more integration 
across different types of electricity generation, that type of 
collaboration across offices is really, really important.
    The last thing I'll say and give Shannon time to talk is 
that policies like 45Q, that was really important. I think, you 
know, we--we are huge supporters of that. There are other 
policies like that, market-pull policies that can help the 
deployment of carbon capture in addition to R&D.
    Ms. Horn. Thank you. And I only have a few moments left, so 
if anybody has a quick comment.
    Ms. Angielski. I would just add that I think from a 
technology perspective, the need for flexible operations in the 
power sector is going to be increasingly more important with 
the growth of renewables, as you mentioned, on the grid. And by 
that I mean we need to have still dispatchable generation on 
the grid, but that can follow the load that is being provided 
by wind and solar. And so that is one of the critical areas of 
research that's identified I think in this draft bill that will 
be important for fossil fuel generation, which is still going 
to provide a significant amount of that electricity well into 
the 2040 timeframe, so----
    Ms. Horn. Thank you very much, and my time is expired. I 
yield back.
    Chairman Lamb. Thank you. I recognize Mr. Norman for 5 
minutes.
    Mr. Norman. Thank you, Mr. Chairman. I want to thank each 
of you for taking the time to come today.
    Mr. Bobeck, I think in your earlier testimony you mentioned 
there are some industries like steel, cement, paper production 
that have no alternative to carbon dioxide emissions. With a 
demand for steel and materials--and I'm a general contractor. 
With steel and materials set to only increase, some companies 
like companies in our areas have made it a go to be carbon-
neutral by 2050. To what extent is the Office of Fossil Energy 
exploring the application of carbon capture to industrial 
sources such as steel?
    Mr. Bobeck. They've done some great work in this area, and 
that's why we all--I think everyone at this table is very 
bullish on the future of carbon utilization, especially for its 
application in those areas. One of the things we think about--
you know, we've talked about building out large pipeline 
networks, but something carbon utilization does is help you in 
geographic areas that are more difficult to decarbonize. For 
instance, if you've got a cement plant, you don't have to 
necessarily build a pipeline 200 miles away to store it. If you 
can build some sort of utilization plant nearby, you can 
utilize that CO<INF>2</INF> right there so it cuts the cost of 
the transportation obviously, and it creates something of 
value. So it's a very, very important thing.
    The FER&D program has led the way on many of these 
technologies, but it is very explicit in this bill, and we see 
that as something very important going forward.
    Mr. Norman. OK. In line with that, how should the Office of 
Fossil Energy prioritize decarbonizing the industrial-sector 
emissions?
    Mr. Bobeck. Well, we think it's critical. It's a little 
over one-fifth of all CO<INF>2</INF> emissions in the U.S., 
and, again, because there isn't a simple renewable solution, 
say, because these are intrinsic to the processes of making 
these products, it's very important to look at different ways 
of decarbonizing, for instance, pre-combustion decarbonization. 
We were talking about jet fuel before. It's very hard to 
decarbonize or to capture the carbon from jet fuel post-
combustion. It's much easier to lower the carbon content pre-
combustion. So we would say it's a very important thing, and we 
commend the Committee for actually having a bill that focuses 
on this.
    Mr. Norman. OK. I've got 2 minutes, but quickly, I guess 
for all of you, the Department of Energy's Advanced 
Manufacturing Office has been a leader in increased industrial 
energy efficiency. However, it has not paid much attention to 
more transformative zero-emissions pathways. It's been 
recommended that the AMO (Advanced Manufacturing Office), FE 
(Fossil Energy), and other relevant DOE offices develop 
technology roadmaps that could help achieve these pathways with 
carbon capture being the main component. Do you agree with this 
strategy? And we'll start with you.
    Ms. Angielski. So I obviously have not given that as much 
thought as you have, so I would say that there's always 
opportunities to leverage across the program offices within DOE 
and cross-fertilize their areas of expertise to get real and 
much better and more efficient results. So----
    Mr. Norman. And we need your help on that, getting a 
roadmap on literally what to do because you're flying in the 
dark----
    Ms. Angielski. Right.
    Mr. Norman [continuing]. Unless you have specifics.
    Ms. Angielski. Yes, I agree.
    Mr. Holstein. And I might add, Congressman--as the Chairman 
mentioned I'm a former Chief of Staff at the Department of 
Energy, so I have enormous respect for the Fossil Energy Office 
and for the national labs that are playing such a key role in 
all this. And I would simply say that one of the things about 
the draft legislation that's so impressive is that it does 
encourage this broad look, but it also brings forward, as I say 
in my testimony, the very best expertise from outside the 
Department, in the form of an advisory committee.
    The need for technology advice I think is terribly 
important. I think Congress needs it, too, which is why I'll 
throw in my 2 cents and endorse the legislative appropriations 
bill that the House has moved forward that would reconstitute 
the Office of Technology Assessment (OTA), which 25 years ago 
was doing a fabulous job of advising the Congress on technology 
matters, including the kinds of questions you were just asking. 
OTA needs to be reconstituted, and I think Congress is right to 
do that.
    Mr. Norman. Thank you. I'm out of time. I wish we could've 
gotten to the others. Thank you so much.
    Chairman Lamb. Thank you. I recognize Mr. McNerney for 5 
minutes.
    Mr. McNerney. Well, I thank the Chairman, and I thank the 
witnesses this afternoon.
    Ms. Angielski, I thought I heard you say that the U.S. 
leads in carbon capture and storage technology. Is that right? 
So what would be the economic benefits to the United States 
with that leadership by 2040?
    Ms. Angielski. So I think that there are a number of 
different ways that you can look at the economic benefits. One 
of the more immediate would be through--carbon utilization has 
been discussed by many of the panelists, whether that's through 
additional oil production by putting CO<INF>2</INF> into 
enhanced oil recovery, whether it's through creating new carbon 
conversion and utilization markets.
    I think it's through the manufacture of equipment, it's 
through additional new jobs that will be created through a new 
industry that will hopefully emerge in the near future. So I 
think that there's a number of different ways. And then of 
course if we can manufacture equipment that can be sold 
overseas in addition to selling more oil overseas, I mean, we 
can see some real improvements from just exports in GDP.
    Mr. McNerney. Thank you. Mr. Holstein, you said that 
significant safeguards are critical to CCUS. What might that 
look like? How would that be implemented, safeguards?
    Mr. Holstein. Certainly. You need to use monitoring 
technology, which is now pretty commonly available, to ensure 
that you're not experiencing the leak of CO<INF>2</INF> into 
the atmosphere. It would defeat the whole purpose of all your 
efforts to remove CO<INF>2</INF> from the atmosphere if it just 
sneaked its way right back out again.
    On detection technology--the Chairman referenced earlier 
the project that EDF has had in 10 cities. It's a different 
purpose, but from a technology standpoint, advanced leak 
detection is very cost-effective. I'd be happy to provide to 
you, if you're interested in following up, examples of 
companies that are doing this kind of very sophisticated leak 
detection work now.
    Mr. McNerney. So that could be applied to CH<INF>4</INF> 
fugitive emissions as well then?
    Mr. Holstein. Absolutely, is being applied to fugitive 
emissions from the oil and gas sector right now. And we need 
more of it.
    Mr. McNerney. That's--I should say--I should say so.
    Mr. Bobeck, I thought I heard you say the cost of carbon 
capture and sequestration would be greatly exceeded by the cost 
of not doing it. Was I incorrect in hearing you say something 
like that?
    Mr. Bobeck. I don't think I put it in exactly that way, but 
it depends on if you take all the societal cost into account.
    Mr. McNerney. So you agree that that's the case?
    Mr. Bobeck. Well, you know, again, we're behind, and this 
is such an important technology if we hope to reach the 2-
degree warming targets. And what I didn't address was if you 
take it out of the toolbox, it makes everything else more 
expensive.
    Mr. McNerney. OK. That's another way of saying it. Thank 
you.
    Dr. Webb, I worked at Sandia National Labs in Albuquerque 
as a contractor for many years, so I appreciate the great work 
that you guys do there.
    Dr. Webb. Sure.
    Mr. McNerney. Could you describe what the subsurface carbon 
storage looks like chemically? What happens when you put carbon 
in the deep subsurface?
    Dr. Webb. So one of the things that happens is it bonds 
with or mixes with water in the subsurface and/or any other 
fluids--oil, gas--that may be in the enhanced oil recovery 
process. And then it--as it reaches certain pressures, it gets 
into a liquid form, the CO<INF>2</INF> does, and this becomes a 
caustic material. It has a tendency to dissolve things that are 
in there in mineral form. And so it's a very complex chemistry. 
And, as a result, you can have precipitation of minerals in 
various pores. That would potentially be a good situation 
because it creates something that's more permanent. Or you 
could have things that are--areas of the formations that you're 
pushing into that effectively become blocked by those and you 
can't access all the pores.
    Mr. McNerney. So is there a danger of contaminating 
groundwater then?
    Dr. Webb. Well, carbon dioxide by itself would not 
contaminate groundwater per se, and all of the formations that 
we've looked at as prospective sequestrationsites are much, 
much deeper than groundwater formations at this point. But in 
addition, in order for carbon sequestration to work, there has 
to be a caprock. There has to be something that holds the 
carbon dioxide in place, and that caprock would also be then 
the barrier between the lower sequestration and the surface 
water would be the groundwater systems.
    Mr. McNerney. If the Chairman will indulge me, are there a 
lot of sites like that around the world or is that a rare 
thing?
    Dr. Webb. The--one of the first parts of this carbon 
sequestration program was that the--was NETL did a national map 
of potential locations in the subsurface that would work for 
this particular activity, and there are a lot of potential 
sites.
    Mr. McNerney. Thank you, Mr. Chairman.
    Chairman Lamb. Thank you. I recognize Mr. Casten for 5 
minutes.
    Mr. Casten. Thank you, Mr. Chairman. Thank you to our 
panelists.
    In order to get the CO<INF>2</INF> down to where we are all 
safe as a species, I kind of divide all of our universe of 
things we have to do--we don't have a choice about--we have to 
do all three of these, put into three buckets. We've got the 
first bucket of things where we invest capital and then save 
money on energy. Renewables, efficiency, conservation, we will 
earn a return on that investment. It may not be a return we 
like, but we'll earn a return.
    The second bucket is stuff that we have to invest capital 
in, and we may or may not earn a return, which I broadly 
characterize as R&D, right? We're going to do our best and 
hopefully, if we succeed, we move some things into that first 
bucket.
    And then the third is that even if we do all of that and we 
stop emitting CO<INF>2</INF> tomorrow, we've got to get the 
atmospheric CO<INF>2</INF> down below 400 again, which means 
we're going to have to do a lot of air-side separation in some 
fashion or another, and that's going to be capital-intensive 
and it's going to cost a lot of money to operate.
    And I take your point; the social cost of carbon is higher, 
so we have to do all three, but that's the hardest bucket 
economically.
    For obvious reasons, let's focus on the two buckets in this 
panel, and I want to start with Mr. Holstein and Mr. Bobeck. 
It's always struck me that the hardest piece in the industrial 
space is that slate of industries that use fossil carbon as a 
reducing agent. Fertilizer production, cement, steel, silicon, 
we need those products to have the kind of lifestyle we want, 
but it's really hard to think of how to do that without coal 
and natural gas.
    As you look at those sectors, are we doing enough? Are 
there technologies you're particularly excited about? And if we 
can't get those sectors decarbonized, what residual of carbon 
emissions are we looking at that we just have to deal with 
continuing to emit that level to maintain the current lifestyle 
that we have?
    Mr. Bobeck. Well, I'm going to bring up something that is 
not within the jurisdiction of this Committee, and that's a 
carbon pricing system, which would spread the cost of carbon 
across the economy and help us decarbonize, you know, as a 
foundation building up. So that's the one thing I would like to 
bring up.
    Mr. Holstein. That actually was exactly what I was going to 
say. It's the fourth bucket. And in my testimony I said we 
needed this overall economic framework putting limits on carbon 
emissions that ratchet down over time and putting a price on 
carbon. And the reason you need that is because that's the only 
way you can be sure that all of this R&D work and all of this 
deployment that we are seeing in noncarbon energy sources, for 
example, are actually going to get us where we need to go.
    Mr. Casten. To----
    Mr. Holstein. Below that 400 parts per million----
    Mr. Casten. You----
    Mr. Holstein. Yes.
    Mr. Casten. You don't need to persuade me of the need to 
price carbon. That's fine. I do want to stay within the 
jurisdiction of the Committee, though, because there are 
practical thermodynamic constraints that are jurisdiction over 
this Committee. There are market-structuring constraints that 
are subject to other committees. And in those fields like 
steelmaking, like solar, I mean, how do you make a solar panel 
without silicon? How do you convert quartz into silicon without 
coal? I don't know how to do that. And, you know, how do you 
make fertilizer without natural gas? I don't know how to do 
that. And my question for you is are we doing enough in those 
fields from an R&D perspective, and do you guys see a path 
where we will have those sorts of tools available, or do we 
have to assume that those sectors are going to be 
undecarbonizable?
    Mr. Holstein. I think it's neither of those. I think once 
you send a strong signal from Congress, from the States, 
Governor Cuomo just yesterday with his announcement of a 
climate plan, you send a signal about where the country is 
headed and the need to develop these technologies and pass 
bills like the ones we're discussing today that push toward 
commercialization. You start creating demand for and strong 
signals to encourage the private sector to make the innovations 
to either change those products or perform the same functions 
of those products using different approaches.
    Mr. Casten. OK. Well, with the minute or so I've got left--
I want to believe you're right. I just get nervous when it's 
the innovation will save us when I don't see the technology 
path.
    So if I can move to Ms. Angielski--I'm sure I'm saying your 
name wrong, and I apologize--and Dr. Webb, same question on the 
air-side capture. These technologies are thermodynamically 
going to be very large and going to cost money to operate. As 
you look at the technologies that are out there, if you've got 
to start picking some, are there some that are inherently going 
to be cheaper? And I'm staying on the economics for 
environmental reasons. The lower the cost it takes to lower the 
carbon, the more carbon we can reduce with finite resources, so 
I'm not for a second saying that economics trumps, but I want 
to understand in your expertise as we look at ways to pull 
CO<INF>2</INF> out of the atmosphere, are there technologies 
you're really excited about?
    Dr. Webb. A short answer from me, I think that the only way 
we'll do this efficiently is to follow biomimetic--biological 
processes, and so that's the source of research that we should 
be looking at.
    Ms. Angielski. I would actually defer to Erin Burns on this 
question if I might do that because we focus on industrial flue 
gases----
    Mr. Casten. OK.
    Ms. Angielski [continuing]. And the capture from that 
source.
    Ms. Burns. Yes, so we think the economics are really 
important, too. I would say a recent Rhodium report had shown 
that without additional innovation just by learning by doing, 
with the current technologies from the three leading companies 
we have out there today, we might get as low as $46 per ton. 
That's not zero, that's not positive. That's still a really 
long way.
    Mr. Casten. It's below the social cost.
    Ms. Burns. Exactly. And I think when we're talking about 
that, when we're talking about the scale of deployment for 
direct air capture and the timeline, we're looking at really 
large scale in the 2030 and 2050 timeline.
    That's also why we're really excited about this bill. 
There's a lot of innovation to be done. Right now, the Federal 
Government has spent a total of $11 million ever on direct air 
capture. That is a drop in the bucket. We need a lot more. And 
the fact that this bill would establish the first-ever carbon 
renewable program is really exciting. It's also really well-
funded.
    I would also say to your earlier question really quickly, I 
think there's a lot of technology we're excited about, and I 
think part of the reason we're so excited about the industrial 
decarbonization bill in conjunction with a fossil energy bill 
is that it does open up--we haven't done a lot of industrial 
R&D.
    Mr. Casten. Yes.
    Ms. Burns. It hasn't been on carbon capture. There's been 
less at DOE. And this bill would look at things like innovative 
renewables applications that could replace some of the heat 
from fossil fuel. Carbon capture is actually cheaper on some 
industrial applications. We see a lot of small-scale deployment 
in the U.S. on carbon capture, and a lot of that's in the 
industrial sector, so when you're talking about fertilizers.
    I would also say that there are new and innovative ways to 
make some of these materials. Some of that's using captured 
carbon dioxide, but there are other pathways that aren't just 
the Portland cement pathway that could help reduce those 
emissions further. So that's all to say there's a lot of really 
cool stuff happening, but we need more R&D, and that's why 
we're really excited about these bills.
    Mr. Casten. Thank you all. I'm drastically over my time----
    Ms. Burns. Sorry.
    Mr. Casten [continuing]. But thank the Chairman for 
allowing me to extend.
    Chairman Lamb. And last but certainly not least, I 
recognize Ms. Stevens for 5 minutes.
    Ms. Stevens. Thank you, Mr. Chairman. And great to be with 
you all here. It was actually great that my colleague from 
Illinois was going over because it was picking up with some of 
the things that I wanted to talk about. And actually let it be 
known for the record--I say this all the time about the Science 
Committee at our hearings--it's the Midwesterners who rule the 
roost here, so thank you to our Chairman, you know, from 
Michigan and, you know, delighted to be talking about this.
    But just kind of picking up where we left off with Mr. 
Casten. OK, carbon capture, you make--you're all making a nice 
case for it. We're glad to hear about the legislation and what 
it means to you, but let's drill down a little bit further. Ms. 
Burns, you're talking about $11 million that we've invested, a 
drop in the bucket. How far behind are we? What happens in the 
aftermath with the carbon capture? Are we burying it? Is it 
producing another economic opportunity or technological 
opportunity for us?
    Ms. Burns. Absolutely. So the $11 million is specific to 
direct air capture. We've actually spent--I don't know the full 
number, but right now, we spend about $100 million a year on 
our carbon capture program. Still, we need more, and again, 
this bill pushes us in the right direction.
    Once you capture that carbon dioxide, there are a couple of 
different things you can do with it. We think that if you 
deploy carbon capture and carbon removal at the scale that you 
see in climate models, the vast majority of that carbon dioxide 
you're going to need to store underground. And as--like Dr. 
Webb has said, we have a ton--we are blessed with a ton of 
great geology for this. We know how to do it. Also, carbon 
storage program at Department of Energy and the Office of 
Fossil Energy has done some great work with this.
    The other thing that you can do and something we're really 
excited about is you can convert it into commercial products, 
and this is a new industry. We got some companies who are at 
the forefront, but we've got dozens of projects in the U.S. And 
I think right now we have an opportunity--there are more 
projects in the U.S. than any other country. I think with more 
R&D funding, more Federal support in the form of provisions 
like 45Q that we can maintain American leadership on this. We 
can really help develop this industry, and we can take 
advantage of a $1 trillion total available market.
    Ms. Stevens. Yes. That's what we talk about a lot here in 
terms of the Science Committee and our agenda, which is 
catalyzing new channels for economic opportunity, as well as 
addressing some of the larger challenges that stand before our 
environment.
    And picking up also with Casten's comments about the 
fertilizer and some of the industries that scale, we obviously 
have a reliance and, you know, some ways a reliance that I'm 
proud of as a Representative from southeastern Michigan on 
traditional manufacturing materials like steel and concrete and 
aluminum.
    And, you know, in terms of how we think about the 
investments needed to decarbonize the production of these 
materials, some of which rely on decades-old processes without 
putting these companies out of business, what's at play here? 
You know, how do we do that? Is it a grants program? Is it 
leveraging something through DOE? Is it something we can tie 
into the legislation, anything that any of you guys have 
thought about that you can weigh in here in terms of that?
    Ms. Burns. I would say I think there's been a lot of talk 
about--we use the term research and development, but we think 
that those questions around demonstration and deployment, 
later-stage work with the private sector is really, really 
important. The Office of Fossil Energy has done a lot of that, 
but there are companies like ArcelorMittal who is a steel 
company in the Carbon Capture Coalition. They are looking at 
projects for industrial carbon capture. The Steelworkers Union, 
all of these groups have been really involved.
    And I think if we look at ways where we cannot just do that 
kind of lab-scale R&D, which is really important, but later-
stage partnerships where we have cost shares between private 
companies and the Department of Energy, we've seen that 
catalyze technology deployment, and I think that's a really 
important piece of this, and we're glad to see it reflected in 
the legislation.
    Ms. Stevens. Yes. And, Mr. Bobeck, did you want to chime in 
here at all on any of this?
    Mr. Bobeck. One thing I'd like to say about that particular 
issue is something in this bill we like very much is the focus 
on large-scale pilots. We've all heard of the valley of death, 
and so I think I said somewhere in my testimony that there's 
nothing worse than a project that doesn't get built after all 
this innovation and research goes into it. So it is very 
important in this bill we believe that there is interest in 
taking this through at least close to the commercialization 
stage.
    Ms. Stevens. Yes. No, that's great. And it's obviously also 
something, as we think about the mark that we want to make and 
as we're legislating, it's the built environment, right? So 
we're navigating within that.
    I just led a big initiative on clean tech tax credits and 
getting that back rolling and what that means, and it's not 
that we're leaving industry.
    So, Holstein, did you want to chime in? And, by the way, 
great background. We're delighted you're here. But did you have 
something you wanted to add?
    Mr. Holstein. I think in the interest of time I think Jeff 
said it----
    Ms. Stevens. OK.
    Mr. Holstein [continuing]. Beautifully. I would just add 
that Dr. Webb mentioned in the course of I think one of his 
answers that the national laboratories, not just his but most 
of them if not all of them, have programs in which they 
generate patents, work with the private sector, and even let 
their own researchers and scientists take leaves of absence to 
help commercialize the technologies that in many cases they 
spend years developing.
    I also mentioned ARPA-E, and the Loan Programs Office at 
DOE. All of these things are moving us more in the direction of 
the late-stage commercialization that we really need and that 
other countries like China do just routinely, reflexively. We 
need to be less afraid of being accused of being, you know, 
industrial policy-focused, crazy people.
    Ms. Stevens. Yes. Thank you for chiming in. Thank you, Mr. 
Chairman. I yield back.
    Chairman Lamb. I think at this point we'd be crazy not to 
do what you're saying, you know?
    So, lastly, Mr. Foster for 5 minutes.
    Mr. Foster. Well, thank you, Mr. Chairman. And I guess as 
one of those Members who did visit NETL just a few weeks ago, 
you know, it's just amazing. I worked for most of my career at 
a national laboratory, and yet there are these jewels scattered 
all around our country that certainly Congress is not as aware 
of as they should be. And they're doing all these great things. 
Just trying to understand the fundamental physics of combustion 
is a field which will have a huge benefit because, as I'm sure 
has been mentioned a multiple times, we're not going to stop 
burning fossil fuels anytime soon.
    I'd also like to second the Ranking Member's endorsement of 
R&D into using supercritical CO<INF>2</INF> as the working 
fluid for a high-temperature, high-Carnot efficiency method of 
generating electricity.
    And so as one of the frontiers in fossil fuels is trying to 
deal with the high temperatures, which is, you know, obviously 
hard on materials but potentially very good for the efficiency. 
And so are we looking down all of the relevant, you know, caves 
of possible technology development along those lines? Because 
it's one of the ways of making fossil fuel combustion, you 
know, more efficient.
    Dr. Webb. Let me take that question, please, Congressman 
Foster. So the material science element of this Brayton cycle 
supercritical CO<INF>2</INF> energy conversion process is the 
focal point of a joint research program that's shared between 
the Nuclear Energy Office and the Fossil Energy Office in 
particular focusing on materials. And these are both metals and 
the sort of gasket seals and other things that are needed in 
the system that are eaten away by CO<INF>2</INF> at those 
pressures and temperatures.
    If it's effective, then it provides not only a more 
efficient energy conversion process, but it also potentially 
removes the water demand for cooling. And that allows us then 
to move energy generation to different places in the country. 
And I know that you've held a water hearing--water-energy 
hearing here recently, and that would also address some of the 
concerns that were brought up in that hearing.
    Mr. Foster. Yes. Yes?
    Ms. Angielski. I just wanted to add that DOE actually has a 
pretty robust high-temperature and pressure materials program 
through the Office of Fossil Energy that they are working in a 
consortium with private-sector and public-sector interests. And 
through that consortium, they are about ready to undertake 
testing of components at these higher temperature and 
pressures, and so that way they can also move those materials 
into a phase where they can be kind of standardized and we can 
actually start using them in these either new technologies or 
more commercial applications. And that program is ever-evolving 
to look at some of these future applications of supercritical--
when I say future I mean more near-term future but 
supercritical CO<INF>2</INF> cycles, whether direct-fired or 
indirect-fired cycles that we see as really promising to 
achieve those efficiencies that you're talking about.
    Mr. Foster. Yes. It's also an issue--I guess right now in 
the horserace but when you separate out the nitrogen to throw 
it away, you know, whether you burn the carbon-hydrogen in with 
a stream of pure oxygen or whether you try to deal with it 
later, which is looking like the low-cost solution to that? And 
are there solutions to the very high temperatures that you come 
to when you burn in pure oxygen?
    Ms. Angielski. So I--we don't want to pick winners and 
losers, but I will say from a promising perspective, they're--
this--as Jeff mentioned earlier, the pre-combustion aspect of 
these new power cycles is really very appealing because you are 
dealing with nitrogen in a post-combustion capture more 
diverse--I'm sorry, low concentration source of CO<INF>2</INF>. 
And that's really what the real difficulty is in carbon capture 
today.
    So if you have these new process cycles where the carbon 
dioxide is merely a byproduct of that cycle or water along with 
it----
    Mr. Foster. Right.
    Ms. Angielski [continuing]. You're producing this 
concentrated source of CO<INF>2</INF> that you then can just do 
what you need to do with it. So from a cost perspective, that's 
clearly much more appealing.
    Mr. Foster. Yes, but then you have to find a way to 
generate the oxygen for cheap.
    Ms. Angielski. That's----
    Mr. Foster. And that's one of the challenges. Are there any 
prospective improvements in the efficiency of oxygen plants to 
do that, or is that pretty much immature technology?
    Dr. Webb. I'm not in a position to answer that question. 
I'd have to----
    Mr. Foster. OK.
    Dr. Webb [continuing]. Do my own homework.
    Mr. Foster. OK.
    Ms. Angielski. I would just add that DOE and a lot of the 
industrial gas separation companies are very much invested in 
looking at improvements in those technologies, and there are 
some other novel approaches to it that--such as chemical 
looping, for example, the different form of oxygen that is 
concentrated that you can put into a combustion chamber. So 
there are some innovative things that are taking place to look 
at other ways of providing that oxygen----
    Mr. Foster. That's----
    Ms. Angielski [continuing]. For combustion.
    Mr. Foster. Yes. That's really wonderful. But you do 
actually have to, at some level, place bets and pick winners 
and losers, and it's difficult and you don't want to have too 
heavy a hand, but, you know, both Congress and you, you know, 
have to choose the most promising technologies to put your 
money on, and it's a problem that none of us can hide from. And 
it's nice to see, you know, really top-notch people working to 
make the best calls on behalf of the taxpaying public, so 
thanks. I'll yield back.
    Chairman Lamb. OK. Before we bring the hearing to a close, 
I want to thank our witnesses again for testifying before us 
today.
    The record will remain open for 2 weeks for additional 
statements from the Members and for any additional questions 
the Committee may ask of the witnesses.
    The witnesses are now excused, and the hearing is 
adjourned. Thank you.
    [Whereupon, at 5:15 p.m., the Subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
